No. 20IN THE

Supreme Court of the United States
_____________
IBSA INSTITUT BIOCHIMIQUE, S.A.,
ALTERGON, S.A., IBSA PHARMA INC.,
Petitioners,
v.
TEVA PHARMACEUTICALS USA, INC.,
Respondent.
_____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
_____________
PETITION FOR WRIT OF CERTIORARI
_____________
ERICA R. SUTTER
FENWICK & WEST LLP
801 California Street
Mountain View, California
94041
(650) 988-8500

JEFFREY J. OELKE*
*Counsel of Record
RYAN P. JOHNSON
LAURA T. MORAN
FENWICK & WEST LLP
902 Broadway, Suite 14
New York, New York 10010
(212) 430-2600
joelke@fenwick.com

Counsel for Petitioners
March 1, 2021

i

QUESTION PRESENTED
Patents are unique: the rights they confer are
strictly territorial in nature, yet there exists an
agreed-upon framework among the vast majority of
countries for efficiently securing patent rights. This
mutual arrangement permits both U.S. and foreign
inventors to seek patent protection first in their home
country and then, if they choose, to seek similar rights
abroad. In both cases, the inventor can claim
“priority” to their domestic application, a critical step
for warding off the potentially preclusive effects of
“prior art” that can bar patenting.
This efficient system would suffer, if not
disappear, without international agreements like the
Agreement on Trade-Related Aspects of Intellectual
Property Rights (the “TRIPS Agreement”), which
establishes a baseline for intellectual property
protections among its 140 signatory countries.
Amongst other protections, the TRIPS Agreement
demands that foreign inventors, and foreign priority
applications, be treated like their domestic
counterparts. This “national treatment” is a critical
protection for U.S. inventors abroad, and for the many
foreign inventors who seek to pursue their patent
rights in the United States. But the courts below
rejected these treaty obligations by choosing to give no
weight to a foreign patent application, resulting in a
finding of indefiniteness.
The question presented is:
Whether, pursuant to the United States’
obligations under the TRIPS Agreement, codified at
19 U.S.C. § 3511, a court construing the claims of a
U.S. patent may give no weight to a foreign priority

ii

patent application, despite its submission to the U.S.
Patent & Trademark Office during prosecution of the
patent-in-question, because it is written in a foreign
language and exhibits minor differences from the U.S.
patent resulting from a translator’s judgment.

iii

PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
IBSA Institut Biochimique, S.A., petitioner on
review, was a plaintiff-appellant below and states
that it has no parent corporation, and that no publicly
held corporation owns, directly or indirectly, 10% or
more of its stock.
Altergon, S.A., petitioner on review, was a
plaintiff-appellant below and states that it has no
parent corporation, and that no publicly held
corporation owns, directly or indirectly, 10% or more
of its stock.
IBSA Pharma Inc. petitioner on review, was a
plaintiff-appellant below and states that it is a wholly
owned subsidiary of IBSA Institut Biochimique, S.A.,
and that no publicly held corporation owns, directly or
indirectly, 10% or more of its stock.
Teva Pharmaceuticals USA Inc., respondent on
review, was defendant-appellee below.

iv

STATEMENT OF RELATED CASES
IBSA Institut Biochimique, S.A., et al. v. Teva
Pharms. USA, Inc., No. 2019-2400 (United States
Court of Appeals for the Federal Circuit) (opinion and
judgment entered July 31, 2020; petition for rehearing
denied October 2, 2020; mandate issued October 7,
2020).
IBSA Institut Biochimique, S.A., et al. v. Teva
Pharms. USA, Inc., No. 18-cv-555-RGA (United States
District Court for the District of Delaware) (judgment
entered September 10, 2019).
There are no additional proceedings in any court
that are directly related to this case.

v

TABLE OF CONTENTS
QUESTION PRESENTED....................................... i
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT.......................................... iii
OPINIONS BELOW ................................................ 1
JURISDICTION ...................................................... 1
STATUTORY PROVISIONS INVOLVED ............. 1
STATEMENT OF THE CASE ................................ 2
BACKGROUND AND PROCEEDINGS BELOW .. 6
I.

Invention of U.S. Patent No. 7,723,390 ........... 6

II. The ’390 Patent ................................................. 7
III. The District Court Finds the ’390 Patent
Invalid for Indefiniteness Because of Its Use of
the Term “Half-Liquid”................................... 11
IV. The Federal Circuit’s Decision ....................... 17
REASONS FOR GRANTING THE PETITION ... 18
I.

The United States Must Treat Foreign
Inventors the Same as U.S. Inventors and
Their Applications. ......................................... 18

II. The United States—through the TRIPS
Agreement and Paris Convention—Is Obliged
to Recognize a Foreign Priority Date for
Applicants of Member Countries. .................. 21
III. The District Court and Federal Circuit
Improperly Subordinated the IBSA Inventors’
Italian Application to Its English Translation.
.......................................................................... 23
CONCLUSION ...................................................... 27

vi

TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED JULY 31,
2020 .....................................................................1a
APPENDIX B — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
DISTRICT OF DELAWARE, FILED
AUGUST 20, 2019 ............................................17a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
FILED OCTOBER 2, 2020 ...............................41a
APPENDIX D — TREATY AND STATUTORY
PROVISIONS....................................................43a

vii

TABLE OF AUTHORITIES
Page(s)
CASES
Abbott Labs v. Sandoz, Inc.,
566 F.3d 1282 (Fed. Cir. 2009) ...................... 16, 25
Bonzel v. Pfizer, Inc.,
439 F.3d 1358 (Fed. Cir. 2006) ............................ 21
Cybor Corp. v. FAS Techs., Inc.,
138 F.3d 1448 (Fed. Cir. 1998) (en
banc) ..................................................................... 13
Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co.,
535 U.S. 722 (2002) .............................................. 24
Godo Kaisha IP Bridge 1 v. TCL
Commc’n Tech. Holdings Ltd.,
967 F.3d 1380 (Fed. Cir. 2020) ............................ 13
Markman v. Westview Instruments Inc.,
52 F.3d 967(Fed. Cir. 1995) (en
banc), aff’d, 517 U.S. 370 (1996) .................... 13, 15
Nautilus, Inc. v. Biosig Instruments,
Inc.,
572 U.S. 898 (2014) .............................................. 24
Phillips v. AWH Corp.,
415 F.3d 1303 (Fed. Cir. 2005) (en
banc) ............................................................... 13, 24

viii

Pioneer Corp. v. Samsung SDI Co.,
No. 2:06-CV-384 (DF), 2007 WL
5688764 (E.D. Tex. Dec. 27, 2007)....................... 16
United States v. Adams,
383 U.S. 39 (1966) ................................................ 24
Yasuko Kawai v. Metlesics,
480 F.2d 880 (C.C.P.A. 1973)......................... 20, 22
STATUTES
19 U.S.C. § 3511 .................................................... 1, 20
21 U.S.C. § 355(j) ....................................................... 12
28 U.S.C. § 1254(1) ...................................................... 1
35 U.S.C. §§ 102 ........................................................ 21
35 U.S.C. §§ 103 ........................................................ 21
35 U.S.C. § 112 ........................................................ 2, 3
35 U.S.C. § 119 .......................................... 8, 22, 23, 24
35 U.S.C. § 184 .......................................................... 22
35 U.S.C. § 271(e) ...................................................... 12
35 U.S.C. § 282(a) ........................................................ 2
OTHER AUTHORITIES
37 C.F.R. § 1.55 ..................................................... 5, 23

ix

Agreement on Trade-Related Aspects of
Intellectual Property Rights:
Marrakesh Agreement Establishing
the World Trade Organization (1994) ......... passim
Michael D. Bednarek, Planning a
Global Patent Strategy to Maximize
Value: Where to Get the Most “Bang
for Your Buck,” 77 J. PAT. &
TRADEMARK OFF. SOC’Y 381, 386
(1995) .................................................................... 21
Donald S. Chisum & Stacey J. Farmer.
(2009). ‘Lost in Translation’: The
Legal Impact of Patent Translation
Errors on Claim Scope. In PATENT
LAW AND THEORY 289-324 (Toshiko
Takenaka ed. 2008) .................................. 22, 23, 25
Exec. Order No. 13042, 62 F.R. 18017..................... 1,2
H.R. Rep. No. 103-826(II) (1994) .............................. 19
Memoranda on the Uruguay Round
Agreements, 60 F.R. 1003...................................... 2
Proclamation No. 6763, 60 F.R. 1007 ......................... 2
Proclamation No. 6780, 60 F.R. 15845 ....................... 2
Paris Convention for the Protection of
Industrial Property, Article 2, as last
revised at the Stockholm Revision
Conference, July 14, 1967 ...................................... 1

x

U.S. Food and Drug Administration’s
Approved Drug Products with
Therapeutic Equivalence
Evaluations (Orange Book) .................................. 12
U.S. Patent No. 7,723,390 ................................. passim

Petitioners IBSA Institut Biochimique, S.A.,
Altergon, S.A., and IBSA Pharma Inc. respectfully
petition for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Federal
Circuit.
OPINIONS BELOW
The opinion of the Federal Circuit (App. 1a) is
reported at 966 F.3d 1374. The Federal Circuit’s order
denying rehearing and rehearing en banc (App. 41a)
is unreported. The opinion of the district court (App.
17a) is reported at 2019 WL 3936656.
JURISDICTION
The Federal Circuit entered judgment on July 31,
2020. Petition for rehearing of that appeal was denied
on October 2, 2020. On March 19, 2020, this Court
extended the deadline to file any petition for a writ of
certiorari due on or after that date from 90 days to 150
days. This petition is filed within 150 days of the
Federal Circuit’s denial of the petition for rehearing.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
The statutes and provisions involved are the Paris
Convention for the Protection of Industrial Property,
Article 2, as last revised at the Stockholm Revision
Conference, July 14, 1967 reproduced at App. 43a, the
Agreement on Trade-Related Aspects of Intellectual
Property Rights: Marrakesh Agreement Establishing
the World Trade Organization, Article 3 (Apr. 15,
1994) reproduced at App. 44a, 19 U.S.C. § 3511,
reproduced at App. 46a, Exec. Order No. 13042, 62

2
F.R. 18017 (Apr. 9, 1997) reproduced at App. 49a,
Proclamation No. 6763, 60 F.R. 1007 (Dec. 23, 1994)
reproduced at App. 52a, Proclamation No. 6780, 60
F.R. 15845 (Mar. 23, 1995) reproduced at App/ 63a,
Memoranda on the Uruguay Round Agreements, 60
F.R. 1003 (Dec. 23, 1994) reproduced at App. 71a, 35
U.S.C. § 112, reproduced at App. 73a, and 35 U.S.C. §
282(a), reproduced at App. 75a.
STATEMENT OF THE CASE
This Petition seeks to remedy the lower courts’
improper refusal to give weight to a U.S. patent’s
foreign priority application. The patent-in-question,
U.S. Patent No. 7,723,390 (the “’390 patent”),
protected four Italian-speaking inventors’ discovery of
a novel pharmaceutical approach to delivering a
hormone needed by a substantial patient population.
The ’390 patent covers Petitioners’ Tirosint®
levothyroxine sodium capsule product. The inventors
first filed for patent protection in Italy in their native
language in Italian Application M12001A1401 (the
“Italian Application”), and then, within the prescribed
12-month period, filed a parallel application in the
United States claiming priority to the Italian
Application.
The inventors’ U.S. Application (in English, of
course) included an overly literal translation of a key
technical term: from the Italian “semiliquido” to the
English “half-liquid.”
It is undisputed that
“semiliquido” may be translated as “semi-liquid,”
which is a commonly used and well-understood term
of art. But instead, presumably because the Italian
prefix “semi” may be translated into English as “half,”
the comparatively obscure term “half-liquid” was used

3
in the specification and the claims of the issued U.S.
patent.
Years later, Respondent Teva Pharmaceuticals
USA Inc. (“Teva”) challenged the patent through the
patent certification process of the Hatch Waxman Act
in filing its Abbreviated New Drug Application
(“ANDA”) seeking to market a generic copy of
Tirosint®.
Petitioners filed suit for patent
infringement. Teva argued that the claim term “halfliquid” was indefinite under 35 U.S.C. § 112, asserting
that no person in the field could possibly parse its
meaning or scope. Petitioners explained that the
term’s meaning was perfectly clear based on the
intrinsic evidence, which is the paramount source of
information for ascertaining claim scope. Chief
among this evidence was the original Italian
Application, which is included in the patent’s
prosecution history, and establishes a clear and
undeniable link between “half-liquid” and the Italian
“semiliquido,”
i.e.,
semiliquid,
an
entirely
unmysterious term.
The Italian Application uses “semiliquido” in the
exact same places, the exact same number of times, to
describe the exact same things, as the U.S. patent
uses “half-liquid.” Yet the district court refused to
even consider this helpful guidance, instead electing
to give the Italian Application no weight in its
analysis. The court first expressed skepticism that
any priority application written in a language other
than English could be relevant. Then the court
focused on minor differences between the Italian
Application and the U.S. patent, concluding that those
differences meant that the inventors must have made
a conscious decision to describe a different invention,

4
making the Italian Application irrelevant. Turning a
blind eye to the evidence, and unable to identify any
other clear meaning for “half-liquid,” the district court
found the term indefinite.
The court of appeals affirmed. It found no fault in
the district court’s unjustified mistrust of foreignlanguage priority applications. It doubled down on
the district court’s choice to treat minor differences in
syntax and phrasing, obviously a product of
translation from Italian to English, as the inventors’
intentional choice to claim a different invention with
a largely unknown and inscrutable term—an illogical
result. And it further justified excising the Italian
Application from the analysis based on the addition of
new subject matter in the United States, despite the
undeniable irrelevance of this newly added subject
matter to the meaning of the terms “semiliquido” and
“half-liquid.”
The lower courts’ analysis flatly contradicts the
TRIPS Agreement’s mandate.
TRIPS Article 3
specifically states: “Each Member shall accord to the
nationals of other Members treatment no less
favourable than that it accords to its own nationals
with regard to the protection of intellectual property.
. ..”
As a signatory, the United States is required to
treat foreign priority applications the same as
domestic applications, and treat foreign inventors the
same as domestic inventors. The courts here declined
the inventors those rights. Their original patent
application, written in the foreign inventors’ native
language, must be the best evidence of their own
understanding of the invention. But the lower courts
ignored it, in part because it was not written in

5
English, and in part because of the most minor of
differences between the two documents.
Those
differences are the unsurprising consequence of
translating a foreign language document to a different
language1—here, the translation of a foreign language
priority application, which is a requirement for any
foreign inventor who seeks U.S. patent rights. They
are not, as the lower court held, evidence of a
conscious choice to claim a different invention in the
United States.
If the lower courts’ view holds, precedent will be
set to give foreign applications no weight in claim
construction proceedings, as the types of differences
the courts found dispositive here are common with
translations, no matter the foreign language. That
rule would flatly contravene the requirement that a
foreign application be treated equally as a domestic
one. And the rule would have profound implications
for foreign applicants’ right to claim priority to their
domestic applications.
This Court should grant certiorari to remedy the
errors below and announce a rule that complies with
the international obligations of the United States
under the TRIPS Agreement: foreign language

1 “Translating from one language to another, unless it is
from Greek and Latin, the queens of all languages, is like looking
at Flemish tapestries from the wrong side, for although the
figures are visible, they are covered by threads that obscure
them, and cannot be seen with the smoothness and color of the
right side.” de Cervantes Saavedra, Miguel, Don Quixote. ch.
xviii, pp. 873–74 (Edith Grossman trans., Harper Perennial ed.
2005).

6
priority applications must be considered in the claim
construction analysis, and minor differences flowing
from translation from a foreign language into English
do not sever ties with the foreign priority document or
establish that the inventors sought to claim
something different in the United States.
BACKGROUND AND PROCEEDINGS BELOW
I.

Invention of U.S. Patent No. 7,723,390

The invention of the ’390 patent is a novel
approach to delivering precise doses of the thyroid
hormone levothyroxine (also known as T4). Thyroid
hormones like T4 are critical for proper development
and for a variety of important bodily functions. ’390
patent at col.1, ll.18-29. Accordingly, an imbalance in
thyroid hormones can have serious medical
consequences. See id.
At the time of the invention, hypothyroidism (i.e.,
too little thyroid hormone) was known to affect 1 out
of every 4,000-5,000 babies born in the United States,
2.7% of men over the age of sixty, and 7.1% of women
over the age of sixty. Id. at col.1, ll.28-38. Most of
these patients treated their hypothyroidism by taking
pharmaceutical tablets containing thyroid hormones
like T4. See id. at col.1, ll.18-29. But these tablets
had serious drawbacks. The amount of T4 varied from
tablet to tablet; the T4 within the tablets was unstable
(i.e., degraded over time); and the absorption of T4
from the tablets into the body varied widely from
patient-to-patient, and even from day-to-day. See,
e.g., ’390 patent at col.2, ll.44-51.
This variability would be troubling for any drug,
but was especially so for T4 because of the extreme

7
precision in dosing that it requires. Unlike many
other drugs, physicians must take care to start
patients suffering from hypothyroidism at an
artificially low dose calculated based on traits such as
age and physical condition, and then escalate the dose
in small steps over time, until the patient reaches a
precise amount tailored to their needs. Too low a dose
of T4 will fail to treat patients’ symptoms and
potentially lead to complications like osteoporosis,
while too high a dose can cause toxic effects like
cardiac arrhythmia. ’390 patent at col.2, ll.1-5. The
high level of variability seen in T4 tablets frustrated
efforts to keep patients at the precise amount required
for effective treatment without causing side effects.
These issues became so severe that, at one point,
the FDA recalled many thyroid hormone products
from the market for issues related to dosing. ’390
patent at col.3, ll.34-46. Yet a solution evaded the
medical community for many years—until the
invention of the ’390 patent. Id. at col.2, l.27 - col.3,
l.46, col.4, ll.33-48.
II.

The ’390 Patent

The invention of the ’390 patent was discovered
by four pharmaceutical scientists. At the time, they
worked for the Swiss pharmaceutical company IBSA
Institut Biochimique S.A. (“IBSA”). IBSA is based in
Lugano, a city located in an Italian-speaking canton

8
of Switzerland. All four inventors are native Italian
speakers. JA 888-89.2
On July 2, 2001, the inventors filed the Italian
Application for their discovery. Under 35 U.S.C. §
119, they had one year to file a parallel application in
the United States, claiming the benefit of the Italian
Application. They did so on July 2, 2002. They
submitted a certified copy of the Italian Application to
the U.S. Patent Office a few months later. Years later,
on May 25, 2010, the inventors’ U.S. application (the
“U.S. Application”) issued as the ’390 patent.
The ’390 patent explains that the inventors had
discovered that creating soft-gel capsules containing
T4 had several significant advantages over the preexisting
tablet
forms,
including
improved
bioavailability and less degradation than the prior
tablet forms. ’390 patent at col.4, l.64 - col.6, l.12.
The ’390 patent identifies four preferred
approaches to carrying out the invention, each
described as a “preferred embodiment:” (1) hard
gelatin capsules filled with T4 and certain inactive
ingredients in solid form (’390 patent at col.7, ll.9-17
(emphasis added)); (2) soft gelatin capsules filled with
T4 and certain inactive ingredients in solid form (id.
at col.7, ll.30-36 (emphasis added)); (3) soft gelatin
capsules filled with T4 and certain inactive
ingredients in liquid or “half-liquid” form (id. at col.7,
l.59 – col.8, l.2 (emphasis added)); and (4) a
“swallowable uniform soft-gel matrix,” made of a

2 JA refers to the Joint Appendix filed with the Federal
Circuit in Appeal No. 2019-2400.

9
“single phase” containing the T4 and certain inactive
ingredients (id. at col.9, ll.21-27).
The first three preferred embodiments appear in
the Italian Application, while the fourth was added
when the inventors entered the United States. JA
318. Aside from this addition, the U.S. Application is
essentially a translation of the Italian Application.
One term in particular, used to describe the third
preferred embodiment, received an overly literal
translation: from the Italian “semiliquido” to the
English “half-liquid,” instead of “semi-liquid.” “Semiliquid” is regularly used in pharmaceuticals and
understood by those in the field. See, e.g., JA 362-374;
JA 466-0485; JA 605. “Half-liquid” is much less
common. The translation to the little-used “halfliquid” apparently resulted from the fact that “semi”
in Italian may be translated as “half” in English.
The ’390 patent’s use of “half-liquid” perfectly
mirrors the Italian Application’s use of “semiliquido,”
reinforcing that this is a translation issue, not a
substantive change. For example:


In every place where the Italian Application
describes the third embodiment with the phrase
“liquido o semi-liquido,” the ’390 patent uses
“liquid or half-liquid.”



The Italian Application provides a list of chemicals
that can serve as “liquidi or semi-liquidi” vehicles.
See, e.g., JA 287 at 310; see also JA 318 at 340. The
list is specific and references trade names of
several commercially available chemicals. Id.
(identifying “Sigma T3396,” “Tweens®,” and
“Sigma P1754”). The same list appears in the ’390

10
patent as examples of “liquid or half-liquid”
vehicles. ’390 patent at col.8, ll.43-53.


The Italian Application suggests using specific
manufacturing equipment, as described in a
particular pharmaceutics treatise, to make soft
capsules filled with “liquido o semi-liquido”
contents. JA 287 at 307-08; see also JA 318 at 33839. The ’390 patent cites the same equipment and
the same treatise as guidance on making capsules
filled with “liquid or half-liquid” contents. ’390
patent at col.8, ll.8-19. The treatise itself discusses
the manufacture of “semiliquids.”

Overall, the ’390 patent’s passages on the third
embodiment—capsules with a “liquid or half-liquid”
fill—are essentially identical to the Italian
Application’s passage on the third embodiment, aside
from minor differences in syntax and word choice.
And this extends to the rest of the ’390 patent as well.
Aside from the fourth embodiment, which was newly
added in the U.S. application and does not concern
“liquid or half-liquid” fillings, the patent’s discussion
of the prior art, its description of the invention, and
its description of the first three embodiments are all
but identical to that in the Italian Application.
Compare JA 287 to JA 318 and JA 39.
The ’390 patent’s use of “half-liquid” extends to its
claims. Claim 1, the patent’s only independent claim,
covers the patent’s third and fourth preferred
embodiments:
1.

A
pharmaceutical
composition
comprising thyroid hormones or

11
their sodium salts in the form of
either:
a)

a soft elastic capsule consisting
of a shell of gelatin material
containing a liquid or half-liquid
inner phase comprising said
thyroid hormones or their salts
in a range between 0.001 and 1%
by weight of said inner phase,
dissolved in gelatin and/or
glycerol, and optionally ethanol,
said liquid or half-liquid inner
phase being in direct contact
with said shell without any
interposed layers, or

b)

a swallowable uniform soft-gel
matrix comprising glycerol and
said thyroid hormones or their
salts in a range between 0.001
and 1% by weight of said matrix.

’390 patent at claim 1 (emphasis added).
III.

The District Court Finds the ’390 Patent
Invalid for Indefiniteness Because of Its
Use of the Term “Half-Liquid”

IBSA Pharma Inc. (“IBSA Inc.”), the U.S.
subsidiary of IBSA, sells the invention of the ’390
patent in the United States under the trade name
Tirosint®. App. 2a. Per statutory and regulatory
requirements, IBSA Inc. listed the ’390 patent for
Tirosint® in the U.S. Food and Drug Administration’s
Approved
Drug
Products
with
Therapeutic

12
Equivalence Evaluations (the “Orange Book”). Id.
Tirosint® was the first levothyroxine product
available in capsule form in the United States. See
App. 3a; see also See IBSA Institut Biochimique, S.A.,
et al. v. Teva Pharms. USA, Inc., 2019-2400 (Fed. Cir.)
Opening Brief for Plaintiffs-Appellants (“Op. Br.”) at
6.
Teva prompted the underlying litigation by filing
an ANDA with the FDA seeking to market a generic
version of Tirosint®. See App. 3a. An ANDA is an
application to make a generic version of a branded
drug that does not contain the requisite clinical
investigations of safety and efficacy, but instead relies
on the branded company’s clinical studies to infer that
the generic product will likewise be safe and effective.
See 21 U.S.C. § 355(j)(2)(A).
Teva included with its ANDA a certification that,
in Teva’s opinion, the ’390 patent is invalid or would
not be infringed by Teva’s generic product (known as
a “Paragraph IV certification”). See App. 3a. By
making this certification, Teva effectively asked the
FDA to approve its generic product for sale in the
United States before the ’390 patent expires. See 21
U.S.C. § 355(j)(5)(B)(iii). Absent the certification,
Teva would not be eligible for approval of its ANDA
until after the ’390 patent expires.
As required by statute, Teva notified IBSA of its
ANDA and the accompanying Paragraph IV
certification. See App. 3a. IBSA then sued Teva for
patent infringement in the District of Delaware
pursuant to 35 U.S.C. § 271(e)(2), which makes
submission of an ANDA with a Paragraph IV
certification an act of patent infringement. The
district court set a schedule for the case that included

13
a “claim construction” phase, including two briefs
from each side, followed by a hearing. See App. 17a.
Claim construction is the process that courts use
to determine the meaning of the terms used in a
patent’s claims as a matter of law. See Markman v.
Westview Instruments, Inc., 517 U.S. 370, 388 (1996).
“[T]he first step in any infringement analysis is claim
construction.” Godo Kaisha IP Bridge 1 v. TCL
Commc’n Tech. Holdings Ltd., 967 F.3d 1380, 1384
(Fed. Cir. 2020). After the claims are construed, the
product accused of infringement is compared to the
claims to assess whether it falls within the claims’
scope. See Cybor Corp. v. FAS Techs., Inc., 138 F.3d
1448, 1454 (Fed. Cir. 1998) (en banc). In construing
claim terms, the court is guided by the intrinsic
evidence—that is, the patent itself and its prosecution
history before the U.S. Patent & Trademark Office
leading up to patent issuance. Phillips v. AWH Corp.,
415 F.3d 1303, 1312-1315 (Fed. Cir. 2005) (en banc).
Extrinsic evidence—i.e., any information outside the
patent and its file history—is less relevant than
intrinsic evidence but may be useful in construing
claims. Id. at 1317-1318.
During claim construction, the parties disagreed
over the proper meaning of the claim term “halfliquid” and submitted the term to the court for
construction. IBSA proposed that “half-liquid” be
construed as “semi-liquid, i.e., having a thick
consistency between a solid and a liquid.” App. 4a.
In support, IBSA referred to the Italian
Application and its use of “semi-liquido.” IBSA
explained that the Italian Application is intrinsic
evidence because it is part of the ’390 patent
prosecution history. App. 4a-5a. IBSA demonstrated

14
that each use of “semi-liquido” in the Italian
Application matches the use of “half-liquid” in the ’390
patent. App. 4a-5a. IBSA explained that “half-liquid”
was therefore an imperfect—albeit literal—ItalianEnglish translation of “semi-liquido.” In other words,
the inventors’ intent was to use the term “semiliquid.” IBSA offered a certified translation of the
Italian Application, which confirmed that “semiliquido” is appropriately translated as “semi-liquid.”
JA 318. IBSA also pointed out that the Englishlanguage treatise that the ’390 patent cites for its
explanation of manufacturing “half-liquids” discusses
the manufacture of “semiliquids.” App. 28a.
IBSA also directed the district court to the ’390
patent’s description of the invention. IBSA explained
that the patent’s example capsule formulations and
lists of chemicals that could be used to make them
confirmed that “half-liquids” had the same properties
as “semi-liquids.” IBSA offered a declaration and
testimony from an expert in pharmaceutics, Dr.
Chyall, to confirm this. JA 466. Dr. Chyall also
explained that a pharmaceutical scientist would
readily understand the Italian word “semi-liquido,” as
used in the Italian Application, to mean “semi-liquid,”
a well-known term of art. See JA 466 at 473, 476-477.
Teva, on the other hand, argued that the term
“half-liquid” is indefinite or, in the alternative, should
be construed to mean “a non-solid, non-paste, non-gel,
non-slurry, non-gas substance.” App. 4a. In support
of its indefiniteness argument, Teva offered a very
short expert declaration from Dr. Khan, the substance
of which was as follows:
The term ‘half-liquid’ is not a term of art. It
does not have an ordinary and customary

15
meaning in the art of pharmaceutical
formulations,
including
gel
capsule
pharmaceutical
formulations
for
oral
administration. One of ordinary skill in
pharmaceutical formulations, including gel
capsule pharmaceutical formulations for oral
administration,
would
not
have
an
understanding of the meaning of the term
‘half-liquid,’ absent some definition.
JA 385 at 389. Dr. Khan offered no further analysis
of the patent’s disclosure, its prosecution, or any other
relevant literature. See id. Nor did he detail any
investigation he may have done to arrive at his
opinion, which amounts to little more than a naked
conclusion of indefiniteness. See id.
At his deposition, Dr. Khan conceded that he had
not reviewed the Italian Application despite the fact
that it is included in the ’390 patent’s prosecution
history. JA 746 at 760. Yet, when shown the Italian
Application, he volunteered—unprompted—that he
would understand that “semi-liquido” in Italian would
mean “semi-liquid” in English. Id. at 761.
On June 27, 2019, the district court held a
Markman hearing. During the Markman hearing, the
district court expressed skepticism over whether the
Italian Application could properly be considered
intrinsic evidence, despite the fact that it is included
in the ’390 patent’s prosecution history, since it is not
written in English. See, e.g., JA 657 at 32:12-32:15
(“[O]ne of the questions I have . . . is whether. . .the
Italian priority application is actually intrinsic
evidence.”). The district court further explained, “[it]
was thinking to [it]self, if you have to translate

16
something, then it seems hard . . . to believe that it’s
actually intrinsic evidence.” Id. at 33:14-16.
The court invited the parties to submit
supplemental briefing on the issue of whether the
Italian Application should be considered intrinsic
evidence. See JA 607, JA 657. In response, IBSA
provided several examples of Federal Circuit
decisions and district court decisions where
translations and foreign priority applications were
considered by the courts, including in the context of
intrinsic evidence. See, e.g., JA 650 at 2 (citing Abbott
Labs v. Sandoz, Inc., 566 F.3d 1282, 1289-1291 (Fed.
Cir. 2009); Pioneer Corp. v. Samsung SDI Co., No.
2:06-CV-384 (DF), 2007 WL 5688764 (E.D. Tex. Dec.
27, 2007). Teva identified no authority to the
contrary. JA 607.
On this record, the district court held the term
“half-liquid” indefinite. At the foundation of the
district court’s conclusion was its decision to “not give
the Italian priority application, or Plaintiffs’
translation of that application, any weight.” App.
28a (emphasis added). The district court explained
that it was “dubious that Italian-language materials,
even if part of the intrinsic record, inform a POSA’s
understanding of what the patent claims.” App. 27a
n.3. The district court also reasoned that because
differences existed between the Italian Application
and the U.S. Application, the U.S. Application was
conclusive of the inventors’ intent. See, e.g., App. 27a
(noting differences in “words and phrases” of the ’390
patent specification).

17
IV.

The Federal Circuit’s Decision

On appeal, IBSA challenged the district court’s
decision to subordinate the Italian Application to its
U.S. counterpart. IBSA argued that “the Italian
Application is the best source to understand the
inventors’ understanding of their invention” (App.
12a) and that the district court did not properly
consider it (see App. 13a-14a). IBSA explained that
the minor differences between the Italian and U.S.
documents that convinced the district court to
disregard the Italian Application were simply minor
differences in syntax and word choice flowing from a
translator’s judgment, not evidence of some intent to
convey a different meaning or claim a different
invention. See IBSA Institut Biochimique, S.A., et al.
v. Teva Pharms. USA, Inc., 2019-2400 (Fed. Cir.)
Reply Brief for Plaintiffs-Appellants at 22. IBSA
pointed out that international obligations codified in
U.S. statute required the court to treat the Italian
Application as the equivalent of a U.S. filing and give
it corresponding weight in the analysis. See Op. Br.
at 40-41.
The Federal Circuit disagreed with IBSA and
reaffirmed the district court’s decision not to give the
Italian Application any weight. See App. 13a n.1. The
appeals court reasoned that differences between the
Italian Application and U.S. Application indicated
that the “discrepant usage of ‘half-liquid’ and
‘semiliquido’ between the ’390 patent and the Italian
Application [was] intentional, implying that the
different word choice has a different scope.” App. 13a.
Additionally, the Federal Circuit held that the U.S.
Application’s inclusion of the new fourth embodiment
within its claims confirmed that the patentees

18
intended the words of the U.S. Application—even
those describing other embodiments—to mean
something different than the Italian Application. See
id. at 12a.
The Federal Circuit disagreed with IBSA that
discounting the Italian Application subordinated a
foreign priority application. App. 13a. The Federal
Circuit again reasoned that differences between a
foreign priority application and a U.S. application are
clear indication of the inventors’ intent. Id. The
Federal Circuit did not address IBSA’s arguments
regarding the United States’ international treaty.
REASONS FOR GRANTING THE PETITION
The United States has agreed to grant comity to
the inventors of other nations that are signatories to
the TRIPS Agreement and give weight to their foreign
priority patent applications. The decision of the
district court, affirmed by the Federal Circuit,
violated those obligations by excising the Italian
Application from its claim construction decision.
I.

The United States Must Treat Foreign
Inventors the Same as U.S. Inventors and
Their Applications.

The United States is a member of the World Trade
Organization (the “WTO”) and a party to the
Agreement on Trade-Related Aspects of Intellectual
Property
Rights
(the
“TRIPS
Agreement”).
Amendment of the TRIPS Agreement, World Trade

19
Organization.3 Italy is also a member of the WTO and
a party to the TRIPS Agreement. See id. (identifying
the European Union as a member). With 140
signatories, the TRIPS Agreement is “to date the most
comprehensive multilateral agreement on intellectual
property.” Overview: the TRIPS Agreement, World
Trade Organization.4
In 1994, Congress enacted the TRIPS Agreement
through the Uruguay Round Agreements Act. HR
5110, 103rd Congress (1994). Both the Senate and
House Reports confirm the intent of Congress to bring
the United States into compliance with the Uruguay
Round Agreements, which included the TRIPS
Agreement. See H.R. Rep. No. 103-826(II) at 2 (1994);
S.Rep. No. 103-412 at 4-6, 10 (1994). The Uruguay
Round Agreements Act was subsequently codified as
19 U.S.C. § 3511.
Article 3 of the TRIPS Agreement requires that
foreign patent applicants be treated in the same
manner as U.S. patent applicants, so long as the
foreign patent applicant is a national of a WTO
member country. TRIPS Agreement, Art. 3. (member
countries “shall accord to the nationals of other
Members treatment no less favourable than that it

Amendment of the TRIPS Agreement, World Trade
Organization,
https://www.wto.org/english/tratop_e/trips_e/amendment_e.htm
(last visited Feb. 24, 2021).
3

4
Overview: the TRIPS Agreement, World Trade
Organization,
https://www.wto.org/english/tratop_e/trips_e/intel2_e.htm (last
visited Feb. 24, 2021).

20
accords to its own nationals with regard to the
protection.”). This concept is known as “national
treatment.” Article 3 further specifies that such
protection “shall include matters affecting the
availability, acquisition, scope, maintenance and
enforcement of intellectual property rights as well as
those matters affecting the use of intellectual property
rights specifically addressed in th[e] Agreement.”
TRIPS Agreement, Art. 3 n.3.
In addition, the TRIPS Agreement incorporates
by reference the Stockholm Act of 14 July 1967 of the
Paris Convention for the Protection of Industrial
Property (the “Paris Convention”).
The Paris
Convention—which both the United States and Italy
were already a part of—similarly requires that
“Nationals of any country of the Union shall, as
regards the protections of industrial property, enjoy in
all the other countries of the Union the advantages
that their respective laws now grant . . . .” Paris
Convention, Art. 2 (1967). Moreover, in the United
States, it is recognized that “the purpose of the Paris
Convention was to have an application made in a
foreign country treated as the equivalent of a domestic
filing.” Yasuko Kawai v. Metlesics, 480 F.2d 880, 889
(C.C.P.A. 1973); see also Bonzel v. Pfizer, Inc., 439
F.3d 1358, 1365 (Fed. Cir. 2006) (explaining that the
Paris Convention “require[s] a nation’s courts to give
equal treatment to nationals of other nations. . . .”).

21
II.

The United States—through the TRIPS
Agreement and Paris Convention—Is
Obliged to Recognize a Foreign Priority
Date for Applicants of Member Countries.

In addition to treating applicants of member
countries and their applications in the same manner,
the Paris Convention also grants foreign applicants a
right of “priority” to a patent application filed in their
home country when they later seek to file a patent
application in a different WTO country. See Paris
Convention, Art. 4 (1967). A priority date establishes
the date for assessing “prior art,” that forms the basis
for determining patent validity. See, e,g., 35 U.S.C. §§
102, 103.
The obligation to recognize a foreign priority date
is essential to establishing the rights of foreign patent
applicants. Foreign inventors often file for patent
protection in the United States given the strength of
the United States patent system and the promise of
the United States market. See Michael D. Bednarek,
Planning a Global Patent Strategy to Maximize Value:
Where to Get the Most “Bang for Your Buck,” 77 J. PAT.
& TRADEMARK OFF. SOC’Y 381, 386 (1995). Similarly,
United States inventors often seek to protect their
inventions in foreign countries. However, many
countries have restrictions that require inventors to
first file in their home country, or in the country
where the invention was made.
See WIPO,
International applications and national security

22
considerations.5 Only later can the inventor applicant
file abroad. The United States itself has its own such
requirement, codified in 35 U.S.C. § 184.
The system established in the Paris Convention
therefore provides for an efficient mechanism by
which inventors can seek patent protection in
multiple countries, without having to file multiple
applications at the same time in order to guarantee a
priority date or consider the implications of being
required to first file in the inventor’s home country.
In order to account for its international
obligations, the United States enacted what is today
35 U.S.C. § 119. See Yasuko Kawai v. Metlesics, 480
F.2d 880, 883 (C.C.P.A. 1973). Pursuant to 35 U.S.C.
§ 119, a foreign application filed in a WTO member
country becomes, in essence, the equivalent of a U.S.
application and must be treated as such. See 35
U.S.C. § 119 (such applications “shall have the same
effect as the same application would have if filed in
this country on the date on which the application for
patent for the same invention was first filed in such
foreign country, if the application in this country is
filed within 12 months from the earliest date on which
such foreign application was filed.”). Accordingly,
commentators have observed that, under these
circumstances, the foreign priority application is in
fact the crucial documentation of the invention; the

5
International applications and national security
considerations, World Intellectual Property Organization,
https://www.wipo.int/pct/en/texts/nat_sec.html (last visited Feb.
24, 2021).

23
U.S. application, in contrast, is merely a translation.
See Donald S. Chisum & Stacey J. Farmer (2009) ‘Lost
in Translation’: The Legal Impact of Patent
Translation Errors on Claim Scope. In PATENT LAW
AND THEORY 289-324 (Toshiko Takenaka ed. 2008)
(“With a direct filing of a non-English application, it
could be argued that the foreign language application
is the U.S. application and the English translation
merely evidence of what the application in fact says.”).
III.

The District Court and Federal Circuit
Improperly Subordinated the IBSA
Inventors’ Italian Application to Its
English Translation.

This case concerns four Italian inventors who first
filed a patent application in Italy. Within twelve
months of the Italian priority date, the applicants
filed a U.S. counterpart in English, as required under
35 U.S.C. § 119 and 37 C.F.R. § 1.55.
Other than the addition of the fourth
embodiment, the substance of the Italian Application
and U.S. Application are nearly identical. In each
instance where the Italian Application uses the term
“semi-liquido,” the corresponding portion of the U.S.
Application uses the term “half-liquid.” The two
terms are otherwise used in the exact same way to
describe the exact same things. See App. 4a. But, an
overly literal translation omitted a term having clear
meaning to those in the field (“semi-liquid”) and
instead inserted a comparatively obscure term (“halfliquid”) in its place.
This obvious mistranslation became a hook first
for Teva, and then the district court and Federal

24
Circuit, to ignore the Italian inventors’ original word
choice of “semi-liquido” in the Italian Application. In
doing so, the courts set aside the term the Italian
applicants originally used (“semi-liquido”) to describe
their invention and violated their rights as foreign
inventors to be afforded the same privileges as
citizens of the United States filing original patent
applications in English. 35 U.S.C. § 119.
The Italian Application is a critical piece of
evidence for claim construction. Under the TRIPS
Agreement, the Paris Convention, and United States
law, the Italian Application must be treated as any
other U.S. application. See supra §§ I; II . Moreover,
as part of the prosecution history, the Italian
Application is part of the intrinsic evidence—the most
critical evidence in claim construction—of the ’390
patent. Nautilus, Inc. v. Biosig Instruments, Inc., 572
U.S. 898, 901 (2014) (citing United States v. Adams,
383 U.S. 39, 48-49 (1966); Festo Corp. v. Shoketsu
Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 741
(2002)). As the originally filed description of the
invention, the Italian Application was also evidence of
the Italian speaking inventors’ intent. See Phillips,
415 F.3d at 1317 (explaining that review of the
prosecution history during claim construction is
useful as it aids in “inform[ing] the meaning of the
claim language by demonstrating how the inventor
understood the invention.”). Put simply, the Italian
Application should be considered the true record of
the inventors’ invention. See Chisum, D., “Lost in
Translation:” The Legal Impact of Patent Translation
Errors on Claim Scope (“With a direct filing of a nonEnglish application, it could be argued that the
foreign language application is the U.S. application

25
and the English translation merely evidence of what
the application in fact says.”) (emphasis added). Yet
the district court’s decision improperly casts aside this
evidence.
Underlying the district court’s decision was its
mistrust of the Italian Application—it was “dubious
that Italian-language materials, even if part of the
intrinsic record, inform a POSA’s understanding of
what the patent claims.” App. 27a n.3. On its own,
that reasoning is directly contrary to the United
States’ obligations under the TRIPS Agreement. See
supra §§ I; II. Furthermore, the decision contradicts
United States jurisprudence. See, e.g., Abbott Labs. v.
Sandoz, Inc., 566 F.3d 1282, 1289-1291 (Fed. Cir.
2009) (considering foreign language priority
application as “intrinsic evidence” and “evidence of
the inventor’s knowledge.”).
The district court’s inherent suspicion of foreign
filings was not its only error. The court also seized on
minor differences between the Italian Application and
the U.S. Application. See App. 27a (noting differences
in the “Field of the Invention” and “Prior Art” sections
of the ’390 patent). The culmination of these errors
was the district court giving the Italian Application
no weight at all. App. 28a.
On appeal, the Federal Circuit likewise
contravened the United States’ international
obligations. It dismissed IBSA’s arguments that the
district court improperly failed to consider the Italian
Application and likewise relied on minor differences
between the Italian Application and the U.S.
Application to arrive at the same sweeping conclusion:
the inventors of the ’390 patent must have intended
their U.S. Application to claim entirely different

26
subject matter than their Italian Application. App.
10a-11a.
At bottom, both courts concluded that the
meaning of “half-liquid” was impossible to ascertain,
despite the presence in the prosecution history of an
indisputably
relevant
priority
document—the
inventors’ initial description of their invention in their
native language—tying the meaning of “half-liquid” to
a well-known and readily understood term of art.
When Teva argued that the translator’s choice of
“half-liquid” rather than “semi-liquid” rendered “halfliquid” meaningless, IBSA rebutted this with the
Italian Application. See App. 4a-5a. The Italian
Application makes the intent of the inventors clear:
they intended to claim “semi-liquid” fillings. But the
lower courts rejected this undeniably relevant
evidence.
The Federal Circuit’s decision, taken to its logical
conclusion, stands for a rule that if a patent
challenger can identify any differences between a
foreign and a U.S. patent application—even the most
minor differences arising from a translator’s
judgment—then the foreign application cannot inform
the analysis of the U.S. patent. Rather, the foreign
application is passed over in favor of the U.S.
application.
This precedent has profound consequences. In
this instance, it led the courts to conclude that Teva
had offered the necessary clear and convincing
evidence of indefiniteness. At the same time, it robbed
IBSA of the best evidence of the disputed term’s
commonly understood meaning, and the inventors’
intent.

27
This practice also directly opposes U.S. law, as
courts must treat foreign inventors as they do U.S.
inventors, and foreign priority applications as they do
U.S. applications. See supra §§ I; II. Certiorari is
warranted to correct this error.
CONCLUSION
For the foregoing reasons, the petition for
certiorari should be granted.
Respectfully submitted,
JEFFREY J. OELKE*
*Counsel of Record
RYAN P. JOHNSON
LAURA T. MORAN
FENWICK & WEST LLP
902 Broadway, Suite 14
New York, NY 10010
(212) 430-2600
joelke@fenwick.com
ERICA R. SUTTER
FENWICK & WEST LLP
801 California Street
Mountain View,
California 94041
(650) 988-8500
Counsel for Petitioners
March 1, 2021

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED JULY 31, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-2400
IBSA INSTITUT BIOCHIMIQUE, S.A.,
ALTERGON, S.A., IBSA PHARMA INC.,
Plaintiffs-Appellants,
v.
TEVA PHARMACEUTICALS USA, INC.,
Defendant-Appellee.
Appeal from the United States District Court for the
District of Delaware in No. 1:18-cv-00555-RGA, Judge
Richard G. Andrews.
July 31, 2020, Decided
Before Prost, Chief Judge, Reyna and Hughes, Circuit
Judges.
Prost, Chief Judge.
IBSA Institut Biochimique, S.A., Altergon, S.A., and
IBSA Pharma Inc. (collectively, “IBSA”) appeal a decision

2a
Appendix A
by the United States District Court for the District of
Delaware holding claims 1, 2, 4, and 7-9 of U.S. Patent
No. 7,723,390 (“the ’390 patent”) invalid as indefinite
under 35 U.S.C. § 112. See IBSA Institut Biochimique,
S.A. v. Teva Pharm. USA, Inc., No. 1:18-cv-00555-RGA,
2019 U.S. Dist. LEXIS 141404, 2019 WL 3936656 (D. Del.
Aug. 20, 2019) (“Decision”); Claim Construction Order
and Final Judgment, id., ECF No. 111. For the reasons
below, we affirm.
I
IBSA is the assignee of the ’390 patent. The ’390
patent issued from U.S. Application No. 10/188,467 (“the
‘467 application”). In addition, the ’390 patent claims
priority from Italian Patent Application No. MI2001A1401
(“the Italian Application”), which is written in Italian and
appears in the ’390 patent’s file history.
The ’390 patent, entitled “Pharmaceutical Formulations
for Thyroid Hormones,” provides “pharmaceutical
formulations based on thyroid hormones enabling a safe
and stable oral administration in the framework of the
strict therapeutic index prescribed in case of thyroid
disorders.” ’390 patent Abstract. The ’390 patent is listed in
the U.S. Food and Drug Administration’s Approved Drug
Products with Therapeutic Equivalence Evaluations (the
“Orange Book”) for IBSA’s Tirosint® product. Tirosint®
is a soft gel capsule formulation containing the active
ingredient levothyroxine sodium.

3a
Appendix A
Teva Pharmaceuticals USA, Inc. (“Teva”) sought to
market a generic version of Tirosint® and filed Abbreviated
New Drug Application (“ANDA”) No. 211369. The ANDA
included a certification pursuant to 21 U.S.C. § 355(j)(2)
(A)(vii)(IV) (“Paragraph IV certification”) that the ’390
patent is invalid, unenforceable, or will not be infringed
by Teva’s generic product. IBSA, after receiving notice
of Teva’s Paragraph IV certification, filed suit ultimately
alleging infringement of claims 1, 2, 4, and 7-9.
II
Central to this appeal is the parties’ dispute over the
construction of “half-liquid,” which appears in independent
claim 1. Claims 2, 4, and 7-9 each ultimately depend from
claim 1. Claim 1 is shown below:
1. A pharmaceutical composition comprising
thyroid hormones or their sodium salts in
the form of either:
a) a soft elastic capsule consisting of a
shell of gelatin material containing
a liquid or half-liquid inner phase
comprising said thyroid hormones
or their salts in a range between
0.001 and 1% by weight of said inner
phase, dissolved in gelatin and/or
glycerol, and optionally ethanol,
said liquid or half-liquid inner
phase being in direct contact with
said shell without any interposed
layers, or

4a
Appendix A
b) a swallowable uniform soft-gel
matrix comprising glycerol and
said thyroid hormones or their
salts in a range between 0.001 and
1% by weight of said matrix.
’390 patent claim 1.
IBSA proposed that the term “half-liquid” should
be construed to mean “semi-liquid, i.e., having a thick
consistency between solid and liquid.” J.A. 75. Teva argued
that the term “half-liquid” is indefinite or should be
construed as “a non-solid, non-paste, non-gel, non-slurry,
non-gas substance.” J.A. 79.
The district court held claims 1, 2, 4, and 7-9 invalid as
indefinite. In support, the court found, first, that IBSA’s
proposed construction was unsupported by the record,
and, second, that the meaning of “half-liquid” was not
otherwise reasonably ascertainable from the record.
A
The district court began by acknowledging that the
parties “agree that the intrinsic record does not define
‘half-liquid.’” Decision, 2019 U.S. Dist. LEXIS 141404,
2019 WL 3936656, at *4 (citing J.A. 78). It then turned to
the intrinsic evidence IBSA presented.
IBSA pointed out that the Italian Application used
the term “semiliquido” in the same places where the ’390
patent used “half-liquid,” and where a certified translation

5a
Appendix A
of the Italian Application prepared for IBSA in 2019 used
“semi-liquid.” IBSA contended that there is a link between
these terms such that a person of ordinary skill in the
art (“POSA”) would understand “half-liquid” and “semiliquid” to be synonyms. The district court disagreed.
The district court observed that there were a number
of differences between the certified translation and the
’390 patent’s specification, besides the use of “half-liquid.”
These differences included the “Field of Invention” and
“Prior Art” sections. Because of these differences, the
court reasoned that the document that best reflected
the applicant’s intent was the document submitted for
examination—the ‘467 application. Accordingly, the
district court gave the Italian Application and the certified
translation no weight in its analysis and determined that
differences between the certified translation and the ’390
patent’s specification were intentional.
The district court also noted that, during prosecution,
the applicant proposed a dependent claim using the term
“semi-liquid.” This claim depended on an independent
claim that used the term “half-liquid.” Although the
dependent claim using the term “semi-liquid” was
removed by the applicant, the district court reasoned this
portion of the prosecution history was “evidence that the
applicant did not mean ‘semi-liquid’ when he used the term
‘half-liquid.’” Decision, 2019 U.S. Dist. LEXIS 141404,
2019 WL 3936656, at *5.
Similarly, in reviewing the ’390 patent’s specification,
the district court determined that citation to pharmaceutical

6a
Appendix A
references, including Remington’s Pharmaceutical
Sciences, which used the term “semi-liquid,” did not show
that “half-liquid” meant “semi-liquid.” Instead, the court
reasoned that such citation showed that the applicant knew
of the term “semi-liquid” yet intentionally chose not to use
it. 2019 U.S. Dist. LEXIS 141404, [WL] at *4.
The district court then turned to the extrinsic
evidence. The court found IBSA’s extrinsic evidence
“minimally probative” and “unpersuasive.” 2019 U.S.
Dist. LEXIS 141404, [WL] at *5. It first determined that
IBSA’s reliance on dictionary definitions did not support
IBSA’s position because they were not in the context of the
claimed invention. Likewise, the court found that IBSA’s
reliance on a handful of patents from other companies did
not support IBSA’s position. The court concluded that,
because IBSA failed to present evidence regarding the use
of the term “half-liquid” in the art besides these patents,
which used the term “half-liquid” only in the context of
“half-liquid bases,” it is “exceedingly unlikely that [‘halfliquid’] was a term of art at the relevant date.” 2019
U.S. Dist. LEXIS 141404, [WL] at *6. Finally, because
the court determined that the opinion of IBSA’s expert,
Dr. Chyall, was exclusively based on evidence that the
court already found unpersuasive, the court afforded Dr.
Chyall’s opinion no weight on this matter. Id.
B
After determining that IBSA’s proposed construction
was not supported by the record, the district court turned
to the second part of its analysis and sought to determine

7a
Appendix A
whether a skilled artisan could nevertheless ascertain a
reasonably certain meaning for “half-liquid.”
The court first noted that the language of claim 1
does not provide “what manner of substance qualifies as a
half-liquid.” Id. Instead, the court determined that claim
1’s language only supports that a “half-liquid” is neither
a liquid nor a solid.
The district court next determined that a POSA
reading the specification would understand that a “halfliquid” is not, or at least is not necessarily, a gel or a paste.
The court reached this conclusion based on a passage of
the ’390 patent stating: “In particular, said soft capsule
contains an inner phase consisting of a liquid, a half-liquid,
a paste, a gel, an emulsion or a suspension comprising the
liquid (or half-liquid) vehicle and the thyroid hormones
together with possible excipients in suspension or
solution.” See id. (quoting ’390 patent col. 7 l. 65-col. 8 l. 2).
The district court then analyzed the prosecution
history. The court noted that the prosecution history
cont a i ned t wo i nst ances i n which the appl icant
distinguished the claimed invention from alleged prior art.
In one instance, in overcoming an obviousness rejection,
the applicant stated that the claimed invention “is not a
macromolecular gel-lattice matrix.” Id. (quoting J.A.
232 (emphases in original)). In the second instance, the
applicant stated that the claimed invention is not a “high
concentration slurry.” Id. (citing J.A. 258). While the court
noted that the full scope of these disclaimers was not clear,
the court determined that the “applicant disclaimed some

8a
Appendix A
portion of the claim’s scope that might otherwise qualify
as a half-liquid.” Id.
Finally, the district court reviewed the extrinsic
evidence. Noting Dr. Chyall’s “difficulty articulating
the boundaries of ‘half-liquid’” during his deposition,
the district court determined that the opinion of Teva’s
expert, Dr. Khan, that “half-liquid is not a well-known
term in the art” must be correct. 2019 U.S. Dist. LEXIS
141404, [WL] at *7.
Accordingly, the district court concluded that the
“ambiguity renders it impossible for a POSA to know,
with reasonable certainty, whether they are dealing with a
half-liquid within the meaning of the claim.” Id. The court
held claims 1, 2, 4, and 7-9 invalid under 35 U.S.C. § 112.
IBSA timely appealed. We have jurisdiction under 28
U.S.C. § 1295(a)(1).
III
A
The definiteness requirement of 35 U.S.C. § 112 “must
take into account the inherent limitations of language.”
Nautilus, Inc. v. Biosig Instruments, Inc., 572 U.S. 898,
909, 134 S. Ct. 2120, 189 L. Ed. 2d 37 (2014). At the same
time, “a patent must be precise enough to afford clear
notice of what is claimed, thereby ‘appris[ing] the public
of what is still open to them.’” Id. (quoting Markman v.
Westview Instruments, Inc., 517 U.S. 370, 373, 116 S. Ct.

9a
Appendix A
1384, 134 L. Ed. 2d 577 (1996) (alteration in original)).
Accordingly, a “claim is invalid for indefiniteness if its
language, read in light of the specification and prosecution
history, ‘fail[s] to inform, with reasonable certainty,
those skilled in the art about the scope of the invention.’”
HZNP Meds. LLC v. Actavis Labs. UT, Inc., 940 F.3d
680, 688 (Fed. Cir. 2019) (quoting Nautilus, 572 U.S. at
901 (alteration in original)).
We review the ultimate question of indefiniteness de
novo. Id at 698. “Determinations about governing legal
standards and about intrinsic evidence are reviewed de
novo, and any factual findings about extrinsic evidence
relevant to the question, such as evidence about knowledge
of those skilled in the art, are reviewed for clear error.”
BASF Corp. v. Johnson Matthey Inc., 875 F.3d 1360, 1365
(Fed. Cir. 2017).
B
1
“We look first to the language of the claim to determine
whether the meaning of [‘half-liquid’] is reasonably clear.”
Berkheimer v. HP Inc., 881 F.3d 1360, 1363 (Fed. Cir.
2018). As neither party meaningfully disputes, the claim
language of the ’390 patent does not make the meaning
of “half-liquid” reasonably clear. The term “half-liquid”
is merely used alongside “liquid” to describe the inner
phase of a soft elastic capsule. See ’390 patent claim 1 (“a
soft elastic capsule consisting of a shell of gelatin material
containing a liquid or half-liquid inner phase”). Therefore,

10a
Appendix A
the claim language clarifies only that a “half-liquid” differs
from a liquid.
2
We next look to the specification. The district court
relied on a passage of the specification stating that
“[i]n particular, said soft capsule contains an inner phase
consisting of a liquid, a half-liquid, a paste, a gel, an
emulsion or a suspension comprising the liquid (or halfliquid) vehicle and the thyroid hormones together with
possible excipients in suspension or solution,” to determine
that a “half-liquid is not, or at least is not necessarily, a
gel or a paste.” Decision, 2019 U.S. Dist. LEXIS 141404,
2019 WL 3936656, at *6 (quoting ’390 patent col. 7 l. 65col. 8 l. 2). Not only do we agree with the district court’s
interpretation of this passage, but a second passage
reinforces this interpretation. See ’390 patent col. 10 ll. 3839 (“Soft capsules (SEC) with liquid, half-liquid, paste-like
or gel-like inner phase”). These disjunctive lists designate
that a “half-liquid” is an alternative to the other members
of the list, including pastes and gels. See, e.g., SkinMedica,
Inc. v. Histogen Inc., 727 F.3d 1187, 1199-1200 (Fed. Cir.
2013) (“The disjunctive ‘or’ plainly designates that a series
describes alternatives.”). Pastes and gels, however, have a
thick consistency between a liquid and a solid and would be
included in IBSA’s proposed construction. Such inclusion is
at odds with the above passages and creates uncertainty
as to the boundaries of a “half-liquid.”
IBSA argues that other portions of the specification
are “at odds” with the above passages. Appellant Br. 63.

11a
Appendix A
As support, IBSA points to a passage of the specification
describing a preferred formulation of the so-called Third
Embodiment. This preferred formulation refers to “an
SEC capsule containing an inner phase consisting of a
paste or gel comprising gelatin and thyroid hormones or
pharmaceutically acceptable salts thereof . . . in a liquid
or half liquid vehicle.” ’390 patent col. 9 ll. 14-19. As Teva
points out, however, IBSA conflates the vehicle within
the inner phase with the inner phase itself, without
“explain[ing] whether and why it contends the two are the
same.” Appellee Br. 46; see also J.A. 90. Accordingly, we
disagree with IBSA that this passage, which discusses
both the inner phase and the vehicle, is at odds with the
specification’s listing of “half-liquids” as alternatives to
pastes and gels.
In light of the specification’s guidance discussed
above, we are not persuaded by IBSA’s reliance on other
portions of the specification that it contends support its
proposed construction. For example, IBSA contends that
the specification’s citation to the Remington’s primer
on making “semi-liquids” using a rotary-die machine
highlights that the applicant intended for “half-liquid”
and “semi-liquid” to be synonyms. Even if this were the
case, the discussion in Remington’s of using a rotarydie machine does not help establish boundaries of a
“half-liquid,” given the lack of clarity in the specification
described above. In addition, IBSA’s reliance on the
’390 patent’s listing of a handful of “liquid or half-liquid
vehicles,” ’390 patent col. 8 ll. 43-54, provides little
guidance regarding the boundaries of a “half-liquid,” as
described by the specification. Similarly, the specification’s

12a
Appendix A
suggestion to modify the viscosity of the capsule content
does not help clarify the boundaries of a “half-liquid.”
3
Next we turn to the prosecution history. IBSA
contends that the Italian Application is the best source to
understand the inventors’ understanding of their invention
and that the district court erred in how it considered the
Italian Application. IBSA argues that because the term
“semiliquido” appears in the Italian Application “the
same number of times, in the same places, to describe
the same things” as “half-liquid” does in the ’390 patent,
a POSA would equate “semiliquido” with “half-liquid.”
Appellant Br. 44. IBSA then contends, based on its
certified translation, that “semiliquido” means “semiliquid.” Together IBSA contends that a POSA would find
that “half-liquid” and “semi-liquid” are synonyms. We
disagree.
Besides the differences the district court discussed
between the Italian Application and the ’390 patent,
Teva also points out that the language of claim 1 of the
’390 patent differs from that of claim 1 of the Italian
application. As Teva notes, claim 1 of the ’390 patent
incorporates the Fourth Embodiment of the ’390 patent,
which was not found in the Italian Application. Further,
unlike the ’390 patent, the Italian Application does not
use the term “gel.” For example, the ’390 patent includes
the passage “an inner phase consisting of a liquid, a
half-liquid, a paste, a gel, an emulsion or a suspension,”
while the certified translation of the Italian Application

13a
Appendix A
translates the Italian Application as “an internal phase
consisting of a liquid, a semi-liquid, a paste, an emulsion
or a suspension.” Appellant Br. 67 (Table 1). Accordingly,
we agree with Teva that a POSA would likely consider
the discrepant usage of “half-liquid” and “semiliquido”
between the ’390 patent and the Italian Application to be
intentional, implying that the different word choice has a
different scope.
Furthermore, and contrary to IBSA’s suggestion, such
weighing of the evidence does not unfairly subordinate
a foreign priority application and does not amount to a
refusal to consider a foreign priority document. Rather,
when discrepancies between a foreign priority document
and the U.S. filing exist, it may be proper to view the
discrepancies as intentional. See Abbott Labs. v. Sandoz,
Inc., 566 F.3d 1282, 1290 (Fed. Cir. 2009) (determining
that although a Japanese priority application mentioned
Crystal A and B, the fact that the patent-at-issue excluded
Crystal B “strongly suggest[ed] that the [patent-at-issue]
intentionally excluded Crystal B compounds”).1
In addition to the Italian Application, another portion
of the prosecution history reinforces our conclusion that
1. We also disagree with IBSA’s suggestion that the district
court refused to consider the Italian Application solely because it was
in a foreign language. While the court noted in a footnote that it was
“dubious that Italian-language materials, even if part of the intrinsic
record, inform a POSA’s understanding of what the patent claims,”
it nevertheless considered the Italian Application and reasonably
decided that the language of the U.S. filing was “significantly more
probative of what the applicant meant than a litigation-inspired
translation [of the Italian Application] done in 2019.” Decision, 2019
U.S. Dist. LEXIS 141404, 2019 WL 3936656, at *4 & n.3.

14a
Appendix A
the applicant intentionally used “half-liquid” instead of
“semi-liquid.” During the prosecution of the ’390 patent
the applicant had a pending claim using “half-liquid” and
another claim, depending from that claim, using the term
“semi-liquid.” See Decision, 2019 U.S. Dist. LEXIS 141404,
2019 WL 3936656, at *5. Although the claim using “semiliquid” was ultimately removed, this is additional evidence
that the applicant knew the term “semi-liquid” yet elected
to use “half-liquid” to mean something different.
Accordingly, the intrinsic evidence fails to establish
the boundaries of a “half-liquid.” We next turn to the
extrinsic evidence.
4
IBSA contends that extrinsic evidence, including
dictionary definitions, other patents, and expert testimony,
supports its proposed construction. The district court
disagreed. It concluded that the dictionary definitions and
four patents that predated the ’390 patent are not related
to the ’390 patent and therefore do not provide context
for what “half-liquid” means. In addition, the court found
that Dr. Chyall was unable to articulate a boundary for
what constitutes a “half-liquid” and could not tell how a
skilled artisan would know when matter is not a “halfliquid” inner phase. Based on our review of the extrinsic
evidence, we determine that the district court did not
clearly err in its analysis.
Despite arguing that “half-liquid” would be a
recognizable term of art, IBSA identified no scientific

15a
Appendix A
dictionaries containing the term. Instead, of the
dictionaries that IBSA relies on, only one—a non-scientific
dictionary—included the term “half-liquid” and only did
so in defining the term “semi-liquid” as a “Half liquid;
semifluid.” Appellant Br. 61 (citing J.A. 605). But even Dr.
Chyall, during his deposition injected uncertainty into this
definition when he stated that “semifluid” and “half-liquid”
are not necessarily synonymous. J.A. 724 at 91:10-92:8.
Second, the four cited patents that use “half-liquid”
only use the term in the context of “half-liquid bases”
and “half-liquid polyols.” Because these patents use the
term “half-liquid” in different contexts than the ’390
patent, these patents do not help define “half-liquid” in
the context of the ’390 patent. IBSA did not provide any
other scientific literature to support its position. Rather,
its expert testified that he was unaware of any textbook
or peer-reviewed scientific journal that uses the term
“half-liquid.” J.A. 742 at 164:11-165:12.
Third, Dr. Chyall’s testimony demonstrates the
difficulty a POSA would face in ascertaining the
boundaries of a “half-liquid.” For example, when asked
how someone could determine whether he or she made
a soft-capsule inner phase that was not a “half-liquid,”
Dr. Chyall stated he was not sure. J.A. 714 at 50:7-14.
Dr. Chyall was also unsure whether his construction of
“half-liquid” would exclude the types of gel and slurry
distinguished during prosecution. J.A. 738 at 147:4148:18. As the district court found, Dr. Chyall’s testimony
corroborates Dr. Khan’s opinion that “half-liquid” is not
a well-known term in the art.

16a
Appendix A
After reviewing the extrinsic evidence, we see no
clear error in the court’s determination that the extrinsic
evidence does not supply “half-liquid” with a definite
meaning under § 112, where the intrinsic evidence has
failed to do so.
IV
We have considered IBSA’s remaining arguments
and find them unpersuasive. Taken together, the intrinsic
and extrinsic evidence fail to inform, with reasonable
certainty, those skilled in the art about the scope of the
invention. We therefore affirm the judgment of the district
court.
AFFIRMED

17a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE DISTRICT
OF DELAWARE, FILED AUGUST 20, 2019
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Civil Action No. 1:18-cv-00555-RGA
IBSA INSTITUT BIOCHIMIQUE, S.A.,
ALTERGON, S.A., AND IBSA PHARMA INC.,
Plaintiffs,
v.
TEVA PHARMACEUTICALS USA, INC.,
Defendant.
MEMORANDUM OPINION
August 16, 2019
ANDREWS, U.S. DISTRICT JUDGE:
Presently before me is the issue of claim construction
of multiple terms in U.S. Patent No. 7,723,390 (“’390
Patent”). (D.I. 70). I have considered the Parties’ Joint
Claim Construction Brief and supplemental submissions.
(Id.; D.I. 97, 98). I heard oral argument on June 27, 2019.
(D.I. 94 (“Tr.”)).

18a
Appendix B
I.

LEGAL STANDARD
A. Claim Construction

“It is a bedrock principle of patent law that the claims
of a patent define the invention to which the patentee is
entitled the right to exclude.” Phillips v. AWH Corp., 415
F.3d 1303, 1312 (Fed. Cir. 2005) (en banc) (citation omitted).
“‘[T]here is no magic formula or catechism for conducting
claim construction.’ Instead, the court is free to attach the
appropriate weight to appropriate sources ‘in light of the
statutes and policies that inform patent law.’” SoftView
LLC v. Apple Inc., 2013 U.S. Dist. LEXIS 125893, 2013
WL 4758195, at *1 (D. Del. Sept. 4, 2013) (quoting Phillips,
415 F.3d at 1324) (alteration in original). When construing
patent claims, a court considers the literal language of
the claim, the patent specification, and the prosecution
history. Markman v. Westview Instruments, Inc., 52
F.3d 967, 979-80 (Fed. Cir. 1995) (en banc), aff’d, 517 U.S.
370, 116 S. Ct. 1384, 134 L. Ed. 2d 577 (1996). Of these
sources, “the specification is always highly relevant to the
claim construction analysis. Usually, it is dispositive; it is
the single best guide to the meaning of a disputed term.”
Phillips, 415 F.3d at 1315.
“[T]he words of a claim are generally given their
ordinary and customary meaning. . . . [This is] the meaning
that the term would have to a person of ordinary skill in
the art in question at the time of the invention, i.e., as of
the effective filing date of the patent application.” Id. at
1312-13. “[T]he ordinary meaning of a claim term is its
meaning to [an] ordinary artisan after reading the entire

19a
Appendix B
patent.” Id. at 1321. “In some cases, the ordinary meaning
of claim language as understood by a person of skill in the
art may be readily apparent even to lay judges, and claim
construction in such cases involves little more than the
application of the widely accepted meaning of commonly
understood words.” Id. at 1314.
When a court relies solely on the intrinsic evidence—
the patent claims, the specification, and the prosecution
history—the court’s construction is a determination of law.
See Teva Pharms. USA, Inc. v. Sandoz, Inc., 574 U.S. 318,
135 S. Ct. 831, 841, 190 L. Ed. 2d 719 (2015). The court
may also make factual findings based on consideration of
extrinsic evidence, which “consists of all evidence external
to the patent and prosecution history, including expert and
inventor testimony, dictionaries, and learned treatises.”
Phillips, 415 F.3d at 1317-19. Extrinsic evidence may assist
the court in understanding the underlying technology,
the meaning of terms to one skilled in the art, and how
the invention works. Id. Extrinsic evidence, however, is
less reliable and less useful in claim construction than the
patent and its prosecution history. Id.
“A claim construction is persuasive, not because it
follows a certain rule, but because it defines terms in the
context of the whole patent.” Renishaw PLC v. Marposs
Societa’ per Azioni, 158 F.3d 1243, 1250 (Fed. Cir. 1998).
It follows that “a claim interpretation that would exclude
the inventor’s device is rarely the correct interpretation.”
Osram GMBH v. Intl Trade Comm’n, 505 F.3d 1351, 1358
(Fed. Cir. 2007) (citation omitted).

20a
Appendix B
B.

Indefiniteness

“[A] patent is invalid for indefiniteness if its claims,
read in light of the specification delineating the patent,
and the prosecution history, fail to inform, with reasonable
certainty, those skilled in the art about the scope of the
invention.” Nautilus, Inc. v. Biosig Instruments, Inc., 572
U.S. 898, 901, 134 S. Ct. 2120, 189 L. Ed. 2d 37 (2014); see
also 35 U.S.C. § 112 (“The specification shall conclude with
one or more claims particularly pointing out and distinctly
claiming the subject matter which the inventor ... regards
as the invention.”). A patent claim is sufficiently definite
if it is “precise enough to afford clear notice of what is
claimed, thereby apprising the public of what is still open
to them.” Nautilus, 572 U.S. at 909 (cleaned up).
“Indefiniteness is a question of law” to which the general
principles of claim construction apply. Eli Lilly & Co. v. Teva
Parenteral Meds., Inc., 845 F.3d 1357, 1370 (Fed. Cir. 2017). A
claim term “is indefinite if its language ‘might mean several
different things and no informed and confident choice is
available among the contending definitions.’” Media Rights
Techs., Inc. v. Capital One Fin. Corp., 800 F.3d 1366, 1371
(Fed Cir. 2015) (quoting Nautilus, 572 U.S. at 911 n.8).
II. BACKGROUND
The patent-in-suit relates generally to pharmaceutical
compositions for thyroid hormones. (’390 Patent at 1:6-7).
The patent descends from an Italian priority application.
(See D.I. 71-1, Exh. O (Italian application); see also D.I.
71-1, Exh. P (February 11, 2019 translation of Italian
application)).

21a
Appendix B
The specification discusses only the T3 and T4 thyroid
hormones. (See ’390 Patent at 1:11-16). The body also
produces Ti and T2 thyroid hormones. (Tr. at 13:15-20).
The numbers (one through four) refer to the number of
iodine atoms attached to the base molecule, thyronine.
(Id.).
The Parties dispute the proper construction of terms
in claims 1, 7, and 8:
1. A pharmaceutical composition comprising
thyroid hormones or their sodium salts in the
form of either:
a) a soft elastic capsule consisting of
a shell of gelatin material containing
a liquid or half-liquid inner phase
comprising said thyroid hormones or
their salts in a range between 0.001
and 1% by weight of said inner phase,
dissolved in gelatin and/or glycerol,
and optionally ethanol, said liquid or
half-liquid inner phase being in direct
contact with said shell without any
interposed layers, or
b) a swallowable uniform soft-gel
matrix comprising glycerol and said
thyroid hormones or their salts in a
range between 0.001 and 1% by weight
of said matrix.

22a
Appendix B
7. The pharmaceutical composition according
to claim 1, having an outer coating which
simplifies ingestion.
8. The pharmaceutical composition according
to claim 1, wherein the material of the capsule
contents or the swallowable uniform soft-gel
matrix includes a plasticizer to control its
hardness.
(’390 Patent, claims 1, 7, 8 (disputed terms italicized)).
III. CONSTRUCTION OF DISPUTED TERMS
1.

“thyroid hormones or their [sodium] salts”

a. Plaintiffs’ proposed construction:
Plain and ordinary meaning: “one or more
thyroid hormones or their [sodium] salts”
b. Defendant’s proposed construction:
Plain and ordinary meaning: multiple
thyroid hormones or sodium salts of multiple
thyroid hormones
c. Court’s construction:
“one or more thyroid hormones or their
[sodium] salts”

23a
Appendix B
The Parties agree that this claim covers compositions
that contain more than one type of thyroid hormone.1 (See
D.I. 70 at 3-20). They disagree, however, whether the claim
covers compositions that contain only one type of thyroid
hormone. (Id.).
Defendant argues that “hormones,” a plural noun,
necessarily means that the claim requires more that one
type of hormone. (Id. at 5). Thus, it argues, the plain and
ordinary meaning is “beyond dispute” and controls the
outcome of this claim construction. (Id.). I disagree.
The meaning of hormones, in the context of the claim
alone, is not so clear. First, if the term is construed only
with reference to the language of the claim, there is
nothing to indicate to a POSA that the applicant meant
multiple types of hormones as opposed to multiple
hormone molecules. The Parties do not dispute that, in the
overall context of the Patent, the claim is clearly referring
to types of hormones. (Tr. at 13:2-6). That understanding,
however, is not ascertainable merely by reading the claim.
Second, although a plural noun is often used to refer to
more than one thing, the plural is also used to capture the
singular in everyday speech. To use a modified example
of what I suggested during oral argument, when driving
through Montana, I have seen signs saying, “Beware of
rattlesnakes.” (See id. at 16:22-17:9). When I saw this, I
understood that a single rattlesnake was something to be
wary of. The plural is used to capture the singular. Another
1. The analysis for “hormones” and “their [sodium] salts” is the
same. Thus, while I discuss only hormones, the conclusions I reach
apply equally to both terms.

24a
Appendix B
example (this time adopting the golf theme presented by
Defendant during argument), on a golf course there are
often signs that say something to the effect of, “Watch for
flying golf balls.” That sign, of course, means to watch for
one or more flying balls—it is using the plural to capture
the singular. Thus, I find that the meaning of “hormones”
is not readily determined from the claim alone.
Plaintiffs argue that the specification would indicate
to a POSA that, in the context of the ’390 Patent,
“hormones” means one or more. (D.I. 70 at 3-5; 12-17).
They support their position by citing multiple instances
in the specification where the applicant described his
invention as containing, “thyroid hormones, in particular
T3 and/or T4.” (Id.; see also ’390 Patent at 2:57-63, 4:7-9,
6:13-18, 9:21-27). They also point out that Defendant’s
construction requires an undisclosed additional thyroid
hormone and reads out most of the embodiments described
in the specification:
The ’390 patent contains 36 example compositions,
but not a single example composition contains
T3 or T4 combined with another hormone. Five
of the 36 example compositions contain T3 and
T4, while the other 31 example compositions
contain either T3 or T4, mirroring the “T3
and/or T4” language from the specification. In
fact, no other thyroid hormone is mentioned
anywhere in the specification.
(D.I. 70 at 12 (citation omitted)). Defendant responds
that the “and/or” language of the specification, and the

25a
Appendix B
absence of any embodiment with a hormone other than
T3 or T4, does not indicate that a third hormone cannot
be present in the composition. (Id. at 7-10). At argument,
however, Defendant was unable articulate a reason why,
based on the disclosure in the specification, the applicant
would have claimed compositions that contain only more
than one hormone. (Tr. at 14:13-16:9).
I do not find Defendant’s position persuasive. It is
not reasonable to construe “hormones” as excluding
the majority of embodiments of the invention. Nor is it
reasonable to read the claims as requiring an undisclosed
third hormone when just one of the disclosed hormones
is present in the composition. Thus, I find that a POSA
reading the specification would conclude, based on the
examples in the specification and the repeated use of
“thyroid hormones, in particular T3 and/or T4,” that
“hormones” in the claim refers to one or more hormones. 2
2. Other courts have construed plural nouns as encompassing
the singular when, in the context of the patent, such a construction
was appropriate. See, e.g., Yodlee, Inc. v. Plaid Techs., Inc., 2016
U.S. Dist. LEXIS 5603, 2016 WL 204372, at *6 (D. Del. Jan. 15,
2016) (construing “list of addresses” as covering a list with just one
address); Flash Seats, LLC v. Paciolan, Inc., 2010 U.S. Dist. LEXIS
4181, 2010 WL 184080, at *8-9 (D. Del. Jan. 19, 2010) (construing
“asks” as “one or more asks”); see also Versa Corp. v. Ag-Bag Int’l
Ltd., 392 F.3d 1325, 1330 (Fed. Cir. 2004) (“[I]n context, the plural
can describe a universe ranging from one to some higher number,
rather than requiring more than one item.”). This indicates that there
is no one correct method of claiming a singular. Thus, I do not find
Defendant’s argument that “a” or “an” is understood in patent law to
mean “one or more” to be probative of the proper construction of this
claim term. (See D.I. 70 at 11). The fact that other patents may use “a”
or “an” to communicate “one or more” is not a proper consideration
for construing “hormones” in the context of the ’390 Patent.

26a
Appendix B
Accordingly, I will construe “thyroid hormones or
their [sodium] salts” as “one or more thyroid hormones
or their [sodium] salts.”
2.

“half-liquid”

a. Plaintiffs’ proposed construction:
Plain and ordinary meaning: semiliquid, i.e.,
having a thick consistency between solid and
liquid
b. Defendant’s proposed construction:
Indefinite.
Alternatively, “a non-solid, non-paste, nongel, non-slurry substance”
c. Court’s construction:
Indefinite.
The Parties agree that the intrinsic record does not
define “half-liquid.” (D.I. 70 at 24). They disagree, however,
whether the term is amenable to construction.
Plaintiffs argue for a “plain and ordinary meaning”
construction based on their position that “half-liquid” is
synonymous with “semi-liquid.” (Id. at 21-24). The intrinsic
record does not, however, support such an understanding.
Plaintiffs argue that a POSA would understand that the

27a
Appendix B
two terms are synonymous based on (1) the Italian priority
application’s use of “semiliquido,” (2) the ’390 Patent’s
specification’s use of “half-liquid” in a manner that is
consistent with a POSA’s understanding of “semi-liquid,”
and (3) uses of the term “half-liquid” in extrinsic evidence.
The Italian priority application is minimally probative
of the meaning of half-liquid. Plaintiffs argue that a
POSA would understand, based on the Italian priority
application’s use of “semiliquido,” that half-liquid means
semi-liquid. 3 (Id. at 21; see also D.I. 71-1, Exh. O at
IBSATIR-00000576, -579-81). To support their argument,
Plaintiffs rely on extrinsic evidence, that is, they
commissioned a professional translation of the priority
application. (See D.I. 71-1, Exh. P (2019 English translation
of Italian priority application)). Plaintiffs’ retranslation
of the Italian priority application is not, however, good
evidence of what the applicant meant by “semiliquido.”
A comparison of Plaintiffs’ translation of the Italian
application’s “Field of Invention” and “Prior Art” sections
against those portions of the ’390 Patent’s specification
quickly reveals that the applicant and the translator
regularly interpret words and phrases differently.
(Compare ’390 Patent at 1:6-4:51, with D.I.71-1, Exh. P
at 2-11). The inconsistency between the two translations
is likely because translation requires the translator to
use judgment. I must assume the applicant used his
judgment, and knew what he meant to communicate, when
3. I am quite sure that, for purposes of claim construction, a
POSA is not required to be fluent in Italian, and thus I am dubious
that Italian-language materials, even if part of the intrinsic record,
inform a POSA’s understanding of what the patent claims.

28a
Appendix B
he translated the Italian priority application into English
for the purpose of filing a U.S. patent application. That
translation is significantly more probative of what the
applicant meant than a litigation-inspired translation done
in 2019. The best evidence of what the applicant meant are
the words he chose. Thus, I do not give the Italian priority
application, or Plaintiffs’ translation of that application,
any weight in claim construction.
The specification’s use of “half-liquid” similarly does
not support redefining that term as semi-liquid. Plaintiffs
argue that the applicant’s citation to pharmaceutical
references that use the term “semi-liquid” means he
understood half-liquid as meaning semi-liquid. (D.I. 70 at
21-23). I do not agree with Plaintiffs’ conclusion. It seems
more likely to me that the applicant’s citation to references
that use the term “semi-liquid,” coupled with his choice to
use the term “half-liquid,” indicates that he was aware of
the term of art and chose not to use it.
The prosecution history provides additional support
for the conclusion that the applicant understood “semiliquid” and “half-liquid” to have different scopes. During
prosecution, the applicant proposed a set of claims that
included the term “semi-liquid”:
2 0. (New) Pha r ma ceut ic a l composit ion
comprising thyroid hormones or their salts
in soft elastic capsules consisting of a shell of
gelatin material and containing a liquid or halfliquid inner phase or in swallowable uniform
soft-gel matrices of gelatin, wherein the

29a
Appendix B
inner phase of the soft elastic capsule and the
swallowable uniform soft-gel matrix comprise
ethanol, glycerol, or mixtures thereof.
...
24. (New) The composition according to claim
20, wherein soft elastic capsule includes an
inner phase consisting of a paste or a gel
comprising gelatin and a liquid or semi-liquid
vehicle consisting of ethanol, glycerol or a
mixture thereof.
(’390 Patent File History: Response to Office Action (April
12, 2005) at 3 (D.I. 71-1, Exh. C at IBSATIR-00000776)
(emphasis added); see also ’390 Patent File History:
Examiner’s Amendment (Jan. 12, 2010) at 3 (D.I. 71-1,
Exh. N at IBSATIR-00001016 (allowing original claim
20 to issue as claim 1))). The applicant later amended the
application to remove proposed claim 24.4 (’390 Patent
File History: Response to Office Action (Oct. 26, 2006) at
3 (D.I. 71-1, Exh. E at IBSATIR-00000838)). I view this
prosecution history as evidence that the applicant did not
mean “semi-liquid” when he used the term “half-liquid.”
He was clearly aware of the term and could easily have
used “semi-liquid” in claim 1, the independent claim.
4. Had proposed claim 24 issued, guiding principles of claim
construction would have strongly favored “half-liquid” and “semiliquid” having distinct meanings. See Amgen Inc. v. Sandoz Inc.,
923 F.3d 1023, 1031 (Fed. Cir. 2019) (“[D]ifferent claim terms are
presumed to have different meanings.” (quoting Helmsderfer v.
Bobrick Washroom Equip., Inc., 527 F.3d 1379, 1382 (Fed. Cir. 2008)).

30a
Appendix B
He, however, chose not to. He chose to eliminate “semiliquid” from the claims entirely. Thus, the specification
and prosecution history indicate the opposite of Plaintiffs’
proposition. Far from show ing that the applicant
understood the two terms as synonymous, the record
indicate that the applicant knew the term “semi-liquid”
and intentionally chose not to use it.
The extrinsic evidence identified by Plaintiffs is
minimally probative and unpersuasive. Plaintiffs look
first to an 1896 definition of “semiliquid” to support their
argument that “half-liquid” is a synonym. (D.I. 70 at 3031). A late 19th-century edition of Webster’s International
Dictionary defines “semiliquid” as “half liquid; semifluid.”
(D.I. 71-1, Exh. HH at 1308). I do not find this evidence
persuasive as to the meaning of “half-liquid” in the context
of the ’390 Patent. The purpose of claim construction is to
determine the meaning of claim terms to a POSA at the
time of the invention. It is important to focus on language
at the time of invention because language evolves over
time. Thus, a dictionary entry from more than a century
prior to the relevant date, defining a term other than the
claim term, carries essentially no weight in determining
the meaning of the term.
Plaintiffs further point to a handful of patents as
support for their argument that a POSA understands
the term “half-liquid.” They argue, “The cited patents
use the term ‘half-liquid’ without providing any express
definition, refuting [Defendant’s expert’s] claim that one
would have been necessary to understand it.” (D.I. 70 at
29). I do not find this argument persuasive. The extrinsic

31a
Appendix B
patents identified by Plaintiff are not persuasive evidence
of what “half-liquid” means in the context of the ’390
Patent. The four pre-priority date patents identified by
Plaintiff each describe pharmaceutical compositions in
“half-liquid bases.” (See D.I. 71-1, Exh. Z at 8-9 (Plaintiffs
expert’s summary of the patents; D.I. 71-1 Exhs. AA-DD
(patents identified by Plaintiff)). Notably, the ’390 Patent
does not mention a “half-liquid base.” Plaintiff, however,
does not address that issue. It is my opinion that, if a
term was not used in the art outside of patents and was
used in patents only in combination with another term, it
is exceedingly unlikely that the term was a term of art at
the relevant date.
Plaintiffs also look to their expert for support of
their position that “half-liquid” is a term of art meaning
“semi-liquid.” (Id. at 29-30). Plaintiffs’ expert’s opinion is,
however, drawn exclusively from his review of the patents
and dictionary definition that I discuss above. (See D.I. 711, Exh. Z at ¶¶19-22). He admitted during his deposition
that he is not aware of any other support in the art for
understanding “half-liquid” to mean “semi-liquid.” (D.I.
86 at 164:11-165:12). Thus, as I do not find the sources
that Plaintiffs’ expert relies on to be anything more than
unconvincing data points, I do not give his opinion on this
matter any weight. 5
5. Plaintiffs’ expert’s declaration is, of course, extrinsic
evidence. In essence, the expert’s ultimate opinion about the
meaning of “half-liquid” is a legal opinion, which is outside his area
of expertise. That is why expert opinions on claim construction are
usually worthless.

32a
Appendix B
In sum, the intrinsic record indicates that the applicant
knowingly chose not to use the term “semi-liquid” and the
extrinsic record provides no support for a conclusion that
the term “half-liquid” is identical in scope to “semi-liquid.”
Thus, I will not adopt Plaintiffs’ position that “half-liquid”
means “semi-liquid.”
As the record does not support construing “halfliquid” to mean “semi-liquid,” I must consider whether
the record discloses a reasonably certain meaning for
“half-liquid.”
I start with the language of the claim itself. From
the claim, a POSA would understand that “half-liquid”
does not mean liquid. (See ’390 Patent, claim 1 (claiming
a “a liquid or half-liquid inner phase” (emphasis added)).
A POSA would also understand, based on the applicant’s
use of the word “liquid,” that a half-liquid is not a solid.
It is not clear from the claims, however, what manner of
substance qualifies as a half-liquid.
I next look to the specification for guidance on the
meaning of “half-liquid.” The ’390 Patent specification
includes “half-liquid” in a list that includes pastes and
gels. (’390 Patent at 7:65-8:2 (“In particular, said soft
capsule contains an inner phase consisting of a liquid,
a half-liquid, a paste, a gel, an emulsion or a suspension
comprising the liquid (or half-liquid) vehicle and the
thyroid hormones together with possible excipients in
suspension or solution.”). A POSA would understand that
this language is meant to indicate that a half-liquid is not,
or at least is not necessarily, a gel or a paste. A half-liquid

33a
Appendix B
is some category of matter that is not identical to those
that may be classified as gel or paste.
The prosecution history is the final piece of intrinsic
evidence that I consider when construing a claim term.
During the ’390 Patent’s prosecution, the applicant
distinguished at least one type of gel and one type of
slurry from the claimed “half-liquid.” To overcome
an obviousness rejection, the applicant stated that
the invention claimed in the ’390 Patent “is not a
macromolecular gel-lattice matrix.” (’390 Patent File
History: Response to Office Action (April 23, 2008) at 4-5
(D.I. 71-1, Exh. I at IBSATIR-00000938-39) (emphasis in
original)). In response to another obviousness rejection,
the applicant clarified that a liquid or half-liquid is not a
“high concentration slurry.” (’390 Patent File History:
Response to Office Action (Nov. 19, 2008) at 6 (D.I. 711, Exh. K at IBSATIR-00000964)). The full scope of
the applicant’s disclaimers is not clear from my review
of the intrinsic record, but it is clear that the applicant
disclaimed some portion of the claim’s scope that might
otherwise qualify as a half-liquid.
Turning now to extrinsic evidence of the meaning of
“half-liquid,” the record reflects that the Parties’ experts
do not know what manner of substance meets the halfliquid limitation of the claim. When asked how a person
could know that something is not a half-liquid inner phase,
Plaintiffs’ expert responded that he didn’t know. (D.I. 86 at
50:7-14). He also testified that some slurries and some gels
may be half-liquid but could not articulate a boundary. (Id.
at 99:4-18; 123:16-124:4; 129:10-130:2). In his declaration,

34a
Appendix B
Plaintiffs’ expert notes that the distinction between the
disclaimed macromolecular gel-lattice matrices and high
concentration slurries is nuanced. (D.I. 71-1, Exh. Z at
¶ 25). He does not, however, attempt to characterize which
substances are half-liquid. (See id.).
Defendant’s expert’s strikingly short declaration
states that “half-liquid” does not have a meaning in the
art and that the specification does not clarify the term’s
meaning. (D.I. 71-1, Exh. Y at ¶¶ 18-20). Although his
declaration is brief, I do credit Defendant’s expert’s
testimony as he has a great deal of relevant personal
experience and education in pharmaceuticals. (Id. at
¶¶ 2-8). On balance, considering Plaintiffs’ expert’s
difficulty articulating the boundaries of “half-liquid,” I
think that, almost by default, Defendant’s expert’s opinion
that half-liquid is not a well-known term in the art must
be right.
Taken together, the record is unclear on the meaning
of “half-liquid.” The intrinsic record teaches us a few
things that are not a half-liquid by outlining some of the
boundaries of the claim term. The intrinsic and extrinsic
records are, however, devoid of any indication of what
defines a half-liquid. There is nothing to put a POSA on
notice of what a half-liquid is. This ambiguity renders it
impossible for a POSA to know, with reasonable certainty,
whether they are dealing with a half-liquid within the
meaning of the claim. Thus, I find that “half-liquid” is
indefinite as a matter of law.

35a
Appendix B
3. “uniform soft-gel matrix”
a. Plaintiffs ‘ proposed construction:
Plain and ordinary meaning: “homogeneous
soft-gel matrix”
b. Defendant’s proposed construction:
“composition containing active drug particles
uniformly dispersed in an unencapsulated
gel matrix”
c. Court’s construction:
“composition containing active drug particles
uniformly dispersed in a single phase with
no outer shell that can be distinguished from
the bulk of the soft-gel matrix, except for
external additive layers like enteric layers
or layers facilitating swallowing”
The Parties’ dispute on this term is the narrow
question of how to properly capture the language used by
the applicant in the specification and prosecution history.
The Parties agree uniform means uniformly dispersed.
(Tr. at 68:13-21). The Parties also agree that external
additive layers, like enteric layers or layers to facilitate
swallowing, fall within the scope of the term. (See Tr. at
79:12-18, 80:11-14). They further agree that the outer layer
must have a reason for being there—a defined purpose
consistent with the purposes described in the specification.
(See id. at 77:4-9, 79:4-8).

36a
Appendix B
The intrinsic record provides two indications of
the meaning of “uniform soft-gel matrix.” First, the
specification describes “uniform soft-gel matrix” as
“constituted of a single phase and . . . not provided (except
for putative external additive layers like enteric layers
or layers facilitating the swallowing) with an outer shell
which could be distinguished from the bulk of the soft-gel
matrix.” (’390 Patent at 9:28-32). Second, to overcome an
obviousness rejection during the prosecution of the Patent,
the applicant explained that the “uniform soft-gel matrix”
embodiment:
is made up of a single, uniform, gelatinous
phase. Thus, in [the] embodiment . . . there is
neither a discernible capsule filling as such (as
in Veronesi [U.S. Patent No. 5,814,338]), nor
an “outer” gelatine layer or an “inner” silicon
layer (see claim 1 of Veronesi). Stated in other
words, a Veronesi-type multilayer texture is
clearly excluded by the very wording “uniform
softgel matrix” which appears in claim 1.
(’390 Patent File History: Response to Office Action (Oct.
26, 2006) at 5 (D.I. 71-1, Exh. E at IBSATIR-00000840)).
Together, the intrinsic record indicates that the distinction
between a soft-gel capsule and a soft-gel matrix with
an additive layer is the nature of the outer coating. A
capsule is filled with the active drug while an additive
layer is applied to a fully formed soft-gel matrix. Whether
something is a capsule versus an additive layer is, however,
a factual question that a POSA can opine on.

37a
Appendix B
The specification clearly sets out what the applicant
meant by “uniform soft-gel matrix.” The prosecution
history does not clearly change or add to that meaning.
Thus, I will construe “uniform soft-gel matrix” according
to the specification as “composition containing active drug
particles uniformly dispersed in a single phase with no
outer shell that can be distinguished from the bulk of the
soft-gel matrix, except for external additive layers like
enteric layers or layers facilitating swallowing”
4.

“outer coating which simplifies ingestion”

a. Plaintiffs’ proposed construction:
No construction necessary.
b. Defendant ‘s proposed construction:
“additional outer layer that reduces the
friction between the capsule and the
patient’s esophagus”
c. Court ‘s construction:
None.
“[T]here no real dispute as to the scope of this
claim.” (D.I. 70 at 50). It is not clear how the Parties
understanding of the term differs, if at all. The Parties
only clear dispute is whether “outer coating which
simplifies ingestion” should be construed. I find that no
construction is necessary.

38a
Appendix B
The plain language of the claim does not lend itself
to Defendant’s construction. That is, it is not clear that
“simplifies ingestion” should be limited to a reduction in
friction between the capsule and a patient’s esophagus. It
is also not clear that “outer coating” requires something
“additional” to the outer surface of the capsule described
in claim 1.
The specification describes one purpose of an “outer
layer,” but that description is not lexicography for the term
“outer coating.” The detailed description of the invention
explains:
Besides (or instead of) possible enteric layers,
the capsules or swallowable uniform soft-gel
matrices according to the present invention
can also be provided with additional outer
layers which simplify ingestion, i.e. consisting
of excipients which reduce the friction between
the capsule and the patient’s esophagus.
(’390 Patent at 6:49-55). Defendant argues that its
construction merely copies the specification’s discussion
of “layers which simplify ingestion” to clarify an
otherwise ambiguous claim term. (D.I. 70 at 48). I do
not find Defendant’s argument persuasive. It is true that
the use of an “i.e.” phrase can be strong evidence of an
applicant’s characterization or definition of her invention.
See SkinMedica, Inc. v. Histogen Inc., 727 F.3d 1187,
1200 (Fed. Cir. 2013) (“[A] patentee’s use of ‘i.e.’ signals
an intent to define the word to which it refers.” (citation
omitted)). Where, as here, the applicant uses “i.e.” to define

39a
Appendix B
a different term than the one that appears in the claim,
the importance of such definitional language is less clear.
It is not clear from this passage that the applicant meant
to disclaim all ingestion-assisting coatings (as opposed to
layers) other than those that help with swallowing. Thus, I
will not construe this term as limited in that way. Instead,
I find that no construction of this term is necessary.
5.

“the capsule contents or the swallowable
uniform soft-gel matrix includes a plasticizer
to control its hardness”

a. Plaintiffs’ proposed construction:
No construction necessary.
b. Defendant’s proposed construction:
Indefinite.
c. Court’s construction:
Plain and ordinary meaning.
Defendant argues that this term is indefinite. The
crux of its argument is this: “It is unclear how a liquid or
half-liquid can be ‘hard,’ how someone can ‘control [the]
hardness’ of a liquid or half-liquid, or how someone would
test to determine if they are ‘control[ling] [the] hardness’
of a liquid or half-liquid.” (D.I. 70 at 52 (alterations in
original)). Defendant does note, citing Wikipedia, that
“hardness” in the context of a liquid typically relates to

40a
Appendix B
mineral content. (Id. at 56). Defendant does not, however,
cite any expert testimony or reliable evidence to support
its position that hardness has no other meaning or couldn’t
mean mineral content in the context of the claim. (See Tr.
at 98:6-15 (explaining that Defendant’s expert did not
address “hardness”)). Defendant’s position, appealing to
“common sense,” does not meet the clear and convincing
evidence standard for finding indefiniteness.
As neither Party proposes a construction for this
term, I will construe it as having its plain and ordinary
meaning. I express no opinion at this time on whether the
plain and ordinary meaning makes logical sense in the
context of this patent.
IV. CONCLUSION
Within five days the parties shall submit a proposed
order consistent with this Memorandum Opinion.

41a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
OCTOBER 2, 2020
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2019-2400
IBSA INSTITUT BIOCHIMIQUE, S.A.,
ALTERGON, S.A., IBSA PHARMA INC.,
Plaintiffs-Appellants,
v.
TEVA PHARMACEUTICALS USA, INC.,
Defendant-Appellee.
Appeal from the United States District Court for the
District of Delaware in No. 1:18-cv-00555-RGA, Judge
Richard G. Andrews.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’M alley, Reyna, Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.

42a
Appendix C
ORDER
Appellants Altergon, S.A., IBSA Institut Biochimique,
S.A. and IBSA Pharma Inc. filed a combined petition for
panel rehearing and rehearing en banc. The petition was
referred to the panel that heard the appeal, and thereafter
the petition for rehearing en banc was referred to the circuit judges who are in regular active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on October 9, 2020.
For the Court
October 2, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

43a
APPENDIX D — Appendix
TREATY D
AND STATUTORY
PROVISIONS
Stockholm Act of the Paris Convention
of 14 July 1967
Article 2
[National Treatment for Nationals
of Countries of the Union]
(1) Nationals of any country of the Union shall, as
regards the protection of industrial property, enjoy in
all the other countries of the Union the advantages that
their respective laws now grant, or may hereafter grant,
to nationals; all without prejudice to the rights specially
provided for by this Convention. Consequently, they shall
have the same protection as the latter, and the same legal
remedy against any infringement of their rights, provided
that the conditions and formalities imposed upon nationals
are complied with.
(2) However, no requirement as to domicile or
establishment in the country where protection is claimed
may be imposed upon nationals of countries of the Union
for the enjoyment of any industrial property rights.
(3) The provisions of the laws of each of the countries
of the Union relating to judicial and administrative
procedure and to jurisdiction, and to the designation of an
address for service or the appointment of an agent, which
may be required by the laws on industrial property are
expressly reserved.

44a
Appendix D
Agreement on Trade-Related Aspects of Intellectual
Property Rights, Apr. 15, 1994, Marrakesh Agreement
Establishing the World Trade Organization, Annex 1C
Article 3
National Treatment
1.
Each Member shall accord to the nationals of
other Members treatment no less favourable than that it
accords to its own nationals with regard to the protection3
of intellectual property, subject to the exceptions already
provided in, respectively, the Paris Convention (1967),
the Berne Convention (1971), the Rome Convention or the
Treaty on Intellectual Property in Respect of Integrated
Circuits. In respect of performers, producers of phonograms
and broadcasting organizations, this obligation only applies
in respect of the rights provided under this Agreement.
Any Member availing itself of the possibilities provided in
Article 6 of the Berne Convention (1971) or paragraph 1(b) of
Article 16 of the Rome Convention shall make a notification
as foreseen in those provisions to the Council for TRIPS.
2.
Members may avail themselves of the exceptions
permitted under paragraph 1 in relation to judicial and
administrative procedures, including the designation of
an address for service or the appointment of an agent
3. For the purposes of Articles 3 and 4, “protection” shall include
matters affecting the availability, acquisition, scope, maintenance
and enforcement of intellectual property rights as well as those
matters affecting the use of intellectual property rights specifically
addressed in this Agreement.

45a
Appendix D
within the jurisdiction of a Member, only where such
exceptions are necessary to secure compliance with
laws and regulations which are not inconsistent with the
provisions of this Agreement and where such practices are
not applied in a manner which would constitute a disguised
restriction on trade.

46a
Appendix D
19 U.S.C.A. § 3511
§ 3511. Approval and entry into force of
Uruguay Round Agreements
(a) Approval of ag reements and statement of
administrative action
Pursuant to section 2903 of this title and section 2191 of
this title, the Congress approves-(1) the trade agreements described in subsection
(d) resulting from the Uruguay Round of
multilateral trade negotiations under the
auspices of the General Agreement on Tariffs
and Trade, entered into on April 15, 1994, and
submitted to the Congress on September 27,
1994; and
(2) the statement of administrative action
proposed to implement the agreements that
was submitted to the Congress on September
27, 1994.
(b) Entry into force
At such time as the President determines that a sufficient
number of foreign countries are accepting the obligations
of the Uruguay Round Agreements, in accordance with
article XIV of the WTO Agreement, to ensure the effective
operation of, and adequate benefits for the United States
under, those Agreements, the President may accept the

47a
Appendix D
Uruguay Round Agreements and implement article VIII
of the WTO Agreement.
(c) Authorization of appropriations
There are authorized to be appropriated annually such
sums as may be necessary for the payment by the United
States of its share of the expenses of the WTO.
(d) Trade agreements to which this Act applies
Subsection (a) applies to the WTO Agreement and to the
following agreements annexed to that Agreement:
(1) The General Agreement on Tariffs and
Trade 1994.
(2) The Agreement on Agriculture.
(3) The Agreement on the Application of
Sanitary and Phytosanitary Measures.
(4) The Agreement on Textiles and Clothing.
(5) The Agreement on Technical Barriers to
Trade.
(6) T he A g r e ement on T r a de -R el at e d
Investment Measures.
(7) The Agreement on Implementation of
Article VI of the General Agreement on Tariffs
and Trade 1994.

48a
Appendix D
(8) The Agreement on Implementation of
Article VII of the General Agreement on
Tariffs and Trade 1994.
(9) The Agreement on Preshipment Inspection.
(10) The Agreement on Rules of Origin.
(11) The Agreement on Import Licensing
Procedures.
(12) T he A g reement on Subsid ies a nd
Countervailing Measures.
(13) The Agreement on Safeguards.
(14) The General Agreement on Trade in
Services.
(15) The Agreement on Trade-Related Aspects
of Intellectual Property Rights.
(16) T he Under st a nd i ng on Ru les a nd
Procedures Governing the Settlement of
Disputes.
(17 ) T h e A g r e e m e nt o n G o ve r n m e nt
Procurement.
(18) The International Bovine Meat Agreement.

49a
Appendix D
EXECUTIVE ORDERS
EXECUTIVE ORDER NO. 13042
<Apr. 9, 1997, 62 F.R. 18017>
Implementing for the United States Article VIII
of the Agreement Establishing the World Trade
Organization Concerning Legal Capacity and
Privileges and Immunities
By the authority vested in me as President by the
Constitution and the laws of the United States of
America, including section 101(b) of the Uruguay Round
Agreements Act (Public Law 103-465) [this section] and
section 1 of the International Organizations Immunities
Act (22 U.S.C. 288), I hereby implement for the United
States the provisions of Article VIII of the Agreement
Establishing the World Trade Organization.
Section 1. The provisions of the Convention on the
Privileges and Immunities of the Specialized Agencies
(U.N. General Assembly Resolution 179 (II) of November
21, 1947, 33 U.N.T.S. 261) shall apply to the World Trade
Organization, its officials, and the representatives of its
members, provided: (1) sections 19(b) and 15, regarding
immunity from taxation, and sections13(d) and section 20,
regarding immunity from national service obligations,
shall not apply to U.S. nationals and aliens admitted for
permanent residence; (2) with respect to section 13(d)
and section 19(c), regarding exemption from immigration
restrictions and alien registration requirements, World

50a
Appendix D
Trade Organization officials and representatives of its
members shall be entitled to the same, and no greater,
privileges, exemptions, and immunities as are accorded
under similar circumstances to officers and employees
of foreign governments, and members of their families;
(3) with respect to section 9(a) regarding exemption
from taxation, such exemption shall not extend to taxes
levied on real property, or that portion of real property,
which is not used for the purposes of the World Trade
Organization. The leasing or renting by the World Trade
Organization of its property to another entity or person
to generate revenue shall not be considered a use for
the purposes of the World Trade Organization. Whether
property or portions thereof are used for the purposes
of the World Trade Organization shall be determined
within the sole discretion of the Secretary of State or the
Secretary’s designee; (4) with respect to section 25(2)(II)
regarding approval of orders to leave the United States,
“Foreign Minister” shall mean the Secretary of State or
the Secretary’s designee.
Sec. 2. In addition and without impairment to the
protections extended above, having found that the World
Trade Organization is a public international organization
in which the United States participates within the
meaning of the International Organizations Immunities
Act, I hereby designate the World Trade Organization
as a public international organization entitled to enjoy
the privileges, exemptions, and immunities conferred by
that Act, except that section 6 of that Act [section 288c of
Title 22, Foreign Relations and Intercourse], providing
exemption from property tax imposed by, or under the

51a
Appendix D
authority of, any Act of Congress, shall not extend to taxes
levied on property, or that portion of property, that is not
used for the purposes of the World Trade Organization.
The leasing or renting by the World Trade Organization
of its property to another entity or person to generate
revenue shall not be considered a use for the purposes
of the World Trade Organization. Whether property or
portions thereof are used for the purposes of the World
Trade Organization shall be determined within the sole
discretion of the Secretary of State or the Secretary’s
designee. This designation is not intended to abridge in
any respect privileges, exemptions, or immunities that
the World Trade Organization otherwise enjoys or may
acquire by international agreements or by congressional
action.
WILLIAM J. CLINTON
THE WHITE HOUSE,
April 9, 1997.

52a
Appendix D
PROCLAMATIONS
PROCLAMATION NO. 6763
<Dec. 23, 1994, 60 F.R. 1007, as amended by Proc. No.
6780, Mar. 23, 1995, 60 F.R. 15849; Proc. No. 6857,
Dec. 11, 1995, 60 F.R. 64817; Proc. No. 6948, Oct. 29,
1996, 61 F.R. 56385>
To Implement the Trade Agreements
Resulting from the Uruguay Round of Multilateral
Trade Negotiations, and for Other Purposes
1. On April 15, 1994, the President entered into trade
agreements resulting from the Uruguay Round of
miltilateral trade negotiations (“the Uruguay Round
Agreements”). In section 101(a) of the Uruguay Round
Agreements Act (“the URAA”) (Public Law 103-465;
108 Stat. 4809) [subsec. (a) of this section], the Congress
approved the Uruguay Round Agreements listed in
section 101(d) of that Act [subsec. (d) of this section].
2. (a) Sections 1102(a) and (e) of the Omnibus Trade and
Competitiveness Act of 1988, as amended (“the 1988 Act”)
(19 U.S.C. 2902(a) and (e)), authorize the President to
proclaim such modification or continuance of any existing
duty, such continuance of existing duty-free or excise
treatment, or such additional duties, as he determines
to be required or appropriate to carry out any trade
agreements entered into under those sections.
(b) Accordingly, I have determined that it is required or
appropriate in order to carry out the Uruguay Round

53a
Appendix D
Agreements, which were entered into under sections
1102(a) and (e) of the 1988 Act (19 U.S.C. 2902(a) and (e)),
that I proclaim the modifications and continuances of
existing duties, duty-free treatments, excise treatments,
and additional duties set forth in the Annex to this
proclamation.
3. (a) Section 111(a) of the URAA [section 3521(a) of this
title] authorizes the President to proclaim such other
modification of any duty, such other staged rate reduction,
or such other additional duties beyond those authorized
by section 1102 of the 1988 Act (19 U.S.C. 2902) as the
President determines to be necessary or appropriate
to carry out Schedule XX--United States of America,
annexed to the Marrakesh Protocol to the General
Agreement on Tariffs and Trade 1994 (“Schedule XX”).
(b) Accordingly, I have determined that it is necessary
or appropriate to carry out Schedule XX to proclaim
such other modifications of duties, such other staged rate
reductions, and such other additional duties, beyond those
authorized by section 1102 of the 1988 Act (19 U.S.C. 2902),
as are set forth in the Annex to this proclamation.
4. Section 111(d) of the URAA [section 3521(d) of this
title] requires the President to proclaim the rate of duty
set forth in Column B of the table set forth in that section
as the column 2 rate of duty for the subheading of the
Harmonized Tariff Schedule of the United States (“HTS”)
that corresponds to the subheading in Schedule XX listed
in Column A.

54a
Appendix D
5. (a) Section 22(f) of the Agricultural Adjustment Act
(“the Adjustment Act”) (7 U.S.C. 624(f)), as amended by
section 401(a) (1) of the URAA, provides that, as of the
date of entry into force of the Agreement Establishing the
World Trade Organization (“the WTO Agreement”), no
quantitative limitation or fee shall be imposed under that
section with respect to any article that is the product of a
World Trade Organization member, as defined in section
2(10) of the URAA [section 3501(10) of this title].
(b) Section 401(a)(2) of the URAA [set out as a note under
section 624 of Title 7, Agriculture] further provides
that, with respect to wheat, amended section 22(f) of the
Adjustment Act (7 U.S.C. 624(f)) shall be effective on the
later of the date of entry into force of the WTO Agreement
or September 12, 1995.
(c) Accordingly, I have decided that it is necessary to
provide for the termination of all quantitative limitations
and fees previously proclaimed under section 22 of the
Adjustment Act (7 U.S.C. 624), other than those for wheat,
as provided in the Annex to this proclamation.
6. (a) Section 404(a) of the URAA [section 3601(a) of this
title] directs the President to take such action as may be
necessary in implementing the tariff-rate quotas set out
in Schedule XX to ensure that imports of agricultural
products do not disrupt the orderly marketing of
commodities in the United States.
(b) Section 404(d)(3) of the URAA [section 3601(d)(3) of
this title] authorizes the President to allocate the in-quota

55a
Appendix D
quantity of a tariff-rate quota for any agricultural product
among supplying countries or customs areas and to modify
any allocation, as he determines appropriate.
(c) Section 404(d)(5) of the URAA [section 3601(d)(5) of
this title] authorizes the President to proclaim additional
U.S. note 3 to chapter 17 of the HTS, dealing with imports
of sugar, together with appropriate modifications thereto,
to reflect Schedule XX.
(d) Section 405 of the URAA [section 3602 of this title]
directs the President to cause to be published in the
Federal Register the list of special safeguard agricultural
goods and, if appropriate, to impose price-based or volumebased safeguards with respect to such goods consistent
with Article 5 of the Agreement on Agriculture annexed
to the WTO Agreement, and authorizes the President to
exempt from any safeguard duty any goods originating
in a country that is a party to the North American Free
Trade Agreement (“the NAFTA”).
7. Presidential Proclamation No. 6641 of December 15,
1993 [108 Stat. 5134], implemented the NAFTA with
respect to the United States and, pursuant to sections 201
and 202 of the North American Free Trade Agreement
Implementation Act (“the NAFTA Act”) (19 U.S.C. 3331
and 3332), incorporated in the HTS the tariff modifications
and rules of origin necessary or appropriate to carry out
or apply the NAFTA. Certain technical errors were made
in the Annexes to that proclamation. I have determined
that, in order to reflect accurately the intended tariff
treatment and rules of origin provided for in the NAFTA,

56a
Appendix D
it is necessary to modify certain provisions of the HTS,
as set forth in the Annex to this proclamation.
8. Presidential Proclamation No. 6455 of July 2, 1992 [set
out as a note under section 3202 of this title], implementing
the Andean Trade Preference Act (“the ATPA”) (19
U.S.C. 3201 et seq.), provided duty-free entry for all
eligible articles, and duty reductions for certain other
articles that are the product of any designated beneficiary
country under that Act. Through technical error, the tariff
treatment of ethyl alcohol, ethyl tertiary-butyl ether, and
mixtures containing these products was incompletely
stated. Accordingly, I have decided that it is appropriate
to modify the provisions of subchapter I of chapter 99 of
the HTS to provide fully for the tariff treatment of such
products under the ATPA.
9. Section 242 of the Compact of Free Association
(“the Compact”) between the United States and Palau
provides that, upon implementation of the Compact,
the President shall proclaim duty-free entry for most
products of designated freely associated states. Such
duty-free treatment, pursuant to the Compact of Free
Association Approval Act (“the Compact Act”) (Public
Law 99-658; 100 Stat. 3672, 48 U.S.C. 1681 note), is subject
to the limitations of section 201 of the Compact Act and
sections 503(b) and 504(c) of the Trade Act of 1974 (“the
1974 Act”) (19 U.S.C. 2463(b) and 2464(c)). In Presidential
Proclamation No. 6726 of September 27, 1994 [set out as a
note under section 1931 of Title 48, Territories and Insular
Possessions], I proclaimed that the Compact would enter
into force on October 1, 1994. In order to accord such

57a
Appendix D
duty-free treatment to products of Palau, I have decided
that it is necessary and appropriate to modify general
note 10 to the HTS to designate the Republic of Palau as
a freely associated state. Further, I have decided that it is
appropriate to modify general note 4(a) to the HTS, which
enumerates designated beneficiary countries for purposes
of the Generalized System of Preferences, to delete Palau
from the list of non-independent countries and territories.
10. Presidential Proclamation No. 5759 of December 24,
1987, imposed increased rates of duty on certain products
of the European Community (“EC”), in response to the
EC’s implementation of the Council Directive Prohibiting
the Use in Livestock Farming of Certain Substances
Having a Hormonal Action. Austria, Finland, and Sweden
have indicated that they will become member states of the
EC on January 1, 1995. Accordingly, to clarify that the
increased rates of duty imposed by Proclamation No. 5759
continue to apply to the EC in its capacity as a foreign
instrumentality, it is necessary to amend the HTS to
indicate that the duties are to be imposed on products of
the EC, including products of all new and future member
states, and not just on products of countries that were
members of the EC in 1987 and that were listed in the
HTS for illustrative purposes
11. Additional U.S. note 24 to chapter 4 of Schedule XX
provides for a delay in the effective date, or prorating,
of the expansion of tariff-rate quotas for cheeses above
the existing quota quantities provided for in subchapter
IV of chapter 99 of the HTS that will result from the
implementation of United States commitments under the

58a
Appendix D
Uruguay Round Agreements, in the case of countries or
areas that implement their market access commitments
on a date later than the effective date of Schedule XX. The
current members of the European Community (Belgium,
Denmark, France, the Federal Republic of Germany,
Greece, Ireland, Italy, Luxembourg, the Netherlands,
Portugal, Spain, and the United Kingdom), Austria,
Poland, Sweden, and Switzerland all have indicated
their intention not to implement their market access
commitments until July 1, 1995. Accordingly, I have
determined, pursuant to my authority under sections
111(a) and (b) of the URAA and section 1102 of the 1988
Act (19 U.S.C. 2902), that it is appropriate not to make
available the amounts specified in section K of the Annex
to this proclamation until July 1, 1995.
12. Section 604 of the 1974 Act (19 U.S.C. 2483) authorizes
the President to embody in the HTS the substance of the
relevant provisions of that Act, of other acts affecting
import treatment, and actions thereunder, including the
removal, modification, continuance, or imposition of any
rate of duty or other import restriction.
NOW, THEREFORE, I, WILLIAM J. CLINTON,
President of the United States of America, acting under
the authority vested in me by the Constitution and the laws
of the United States of America, including but not limited
to section 604 of the 1974 Act (19 U.S.C. 2483), section
1102 of the 1988 Act (19 U.S.C. 2902), sections 201 and 202
of the NAFTA Act (19 U.S.C. 3331 and 3332), and title I
and title IV of the URAA [Title I and Title IV of Pub.L.
103-465; see Tables for classification], do hereby proclaim:

59a
Appendix D
(1) In order to provide generally for the tariff treatment
being accorded under the Uruguay Round Agreements,
including the modification or continuance of existing
duties or other import restrictions and the continuance
of existing duty-free or excise treatment provided for
in Schedule XX, the URAA, and the other authorities
cited in this proclamation, including the termination of
quantitative limitations and fees previously imposed under
section 22 of the Adjustment Act (7 U.S.C. 624), the HTS
is modified as set forth in the Annex to this proclamation.
(2)(a) The modifications to the HTS made by sections A
(except with respect to paragraphs thereof specifying
other effective dates), C, E, and IJ of the Annex to this
proclamation shall be effective with respect to goods
entered, or withdrawn from warehouse for consumption,
on and after January 1, 1995;
(b) The modifications to the HTS made by sections B,
D(1)-(5), F, G, H, and L of the Annex to this proclamation,
and by those paragraphs of section A specifying effective
dates other than January 1, 1995, shall be effective with
respect to goods entered, or withdrawn from warehouse
for consumption, on and after the dates set forth in such
sections of the Annex;
(c) The modifications to the HTS made by section D(6)
of the Annex to this proclamation shall be effective
with respect to goods entered, or withdrawn from
warehouse for consumption, on and after the dates set
forth in such section, unless the United States Trade
Representative (USTR) announces that the scheduled

60a
Appendix D
staged duty reductions set forth in such Annex section
are being withheld because other major countries have not
afforded adequate entity coverage under the Agreement
on Government Procurement annexed to the WTO
Agreement, and so advises the Secretary of the Treasury
and publishes this information in a notice in the Federal
Register;
(d) The modifications to the HTS made by section D(7)
of the Annex to this proclamation shall be effective with
respect to goods entered, or withdrawn from warehouse
for consumption, on and after the date announced by the
USTR in a notice published in the Federal Register as the
date on which other major countries have afforded adequate
entity coverage under the Agreement on Government
Procurement annexed to the WTO Agreement; and
(e) Section K of the Annex to this proclamation, providing
for a delay in implementation of the expansion of tariff-rate
quotas of cheeses, applies during the period January 1,
1995, through June 30, 1995, unless the USTR determines
that it is in the interest of the United States for any such
delays to apply to a different period and publishes notice
of the determination and applicable period in the Federal
Register. The USTR also is authorized to prorate over
the applicable period any of the quantities that may be
imported.
(3) The USTR is authorized to exercise my authority under
section 404(d)(3) of the URAA [section 3601(d)(3) of this
title] to allocate the in-quota quantity of a tariff-rate quota
for any agricultural product among supplying countries or

61a
Appendix D
customs areas and to modify any allocation as the USTR
determines appropriate.
(4) The Secretary of Agriculture is authorized to exercise
my authority to make determinations under section 405(a)
of the URAA [section 3602(a) of this title] and to publish
those determinations in the Federal Register.
(5) Effective January 1, 1995, in order to clarify that the
additional duty provided for in subheadings 9903.23.00
through 9903.23.35, inclusive, of the HTS shall apply
to new member states of the European Community, the
superior text to those subheadings is modified as provided
in the Annex to this proclamation. The USTR is authorized
to alter the application of the increased duties imposed by
Presidential Proclamation No. 5759, as modified herein, by
further modifying the superior text to those subheadings
so that it reflects accurately all member states of the
European Community or any successor organization.
Notice of any such modification shall be published in the
Federal Register.
(6) Whenever the rate of duty in the general subcolumn of
rates of duty column 1 of the HTS is reduced to “Free”, all
rates of duty set forth in the special subcolumn of column
1 shall be deleted from the HTS.
(7) The USTR, the Secretary of Agriculture, and the
Secretary of the Treasury are authorized to exercise my
authority under the statutes cited in this proclamation to
perform certain functions to implement this proclamation,
as assigned to them in the Annex to this proclamation.

62a
Appendix D
(8) Paragraphs (1)-(4), (6), and (7) shall be effective on
January 1, 1995, unless the USTR announces prior to
that date that the WTO Agreement will not enter into
force on that date.
(9) All provisions of previous proclamations and Executive
orders that are inconsistent with the actions taken in
this proclamation are superseded to the extent of such
inconsistency.
IN WITNESS WHEREOF, I have hereunto set my
hand this twenty-third day of December, in the year of
our Lord nineteen hundred and ninety-four, and of the
Independence of the United States of America the two
hundred and nineteenth.
WILLIAM J. CLINTON

63a
Appendix D
PROCLAMATION NO. 6780
<Mar. 23, 1995, 60 F.R. 15845>
To Implement Certain Provisions
of Trade Agreements Resulting from the
Uruguay Round of Multilateral Trade
Negotiations, and for Other Purposes
1. On April 15, 1994, I entered into trade agreements
resulting from the Uruguay Round of multilateral trade
negotiations (“the Uruguay Round Agreements”). In
section 101(a) of the Uruguay Round Agreements Act (“the
URAA”) (Public Law 103-465; 108 Stat. 4814) (19 U.S.C.
3511(a)), the Congress approved the Uruguay Round Trade
Agreements listed in section 101(d) of that Act.
2. Pursuant to section 101(b) of the URAA, I decided
to accept the Agreement Establishing the World Trade
Organization (“the WTO Agreement”) on behalf of the
United States, and I determined that the WTO Agreement
entered into force for the United States on January 1, 1995.
3. (a) Sections 1102(a) and (e) of the Omnibus Trade and
Competitiveness Act of 1988, as amended (“the 1988 Act”)
(19 U.S.C. 2902(a) and (e)), authorize the President to
proclaim such modification or continuance of any existing
duty, such continuance of existing duty-free or excise
treatment, or such additional duties, as he determines
to be required or appropriate to carry out any trade
agreement entered into under these sections.

64a
Appendix D
(b) Section 111(a) of the URA A (19 U.S.C. 3521(a))
author izes the President to proclaim such other
modification of any duty, such other staged rate reduction,
or such other additional duties beyond those authorized
by section 1102 of the 1988 Act (19 U.S.C. 2902) as the
President determines to be necessary or appropriate
to carry out Schedule XX--United States of America,
annexed to the Marrakesh Protocol to the General
Agreement on Tariffs and Trade 1994 (“Schedule XX”).
(c) Section 103(a) of the URA A (19 U.S.C. 3513(a))
authorizes the President to proclaim such actions as may
be necessary to ensure that any provision or amendment
made by the URAA that takes effect on the date that any
of the Uruguay Round Agreements enters into force with
respect to the United States is appropriately implemented
on such date.
4. Proclamation 6763 of December 23, 1994, implemented
the Uruguay Round Agreements, including Schedule XX,
with respect to the United States; and incorporated in the
Harmonized Tariff Schedule of the United States (“the
HTS”) tariff modifications necessary and appropriate to
carry out the Uruguay Round Agreements and certain
conforming changes in rules of origin for the North
American Free Trade Agreement (“NAFTA”). Certain
technical errors, including inadvertent omissions, were
made in that proclamation. I have determined that it
is necessary, to reflect accurately the intended tariff
treatment provided for in the Uruguay Round Agreements
and to ensure the continuation of the agreed NAFTA rules
of origin, to modify certain provisions of the HTS, as set
forth in the Annex to this proclamation.

65a
Appendix D
5. (a) One of the Uruguay Round Agreements approved
by the Congress in sections 101(a) and 101(d) of the URAA
(19 U.S.C. 3511(a) and (d)) is the Agreement on TradeRelated Aspects of Intellectual Property Rights (“the
TRIPs Agreement”).
(b) Section 104A of title 17, United States Code, as
amended by section 514 of the URAA, provides for
copyright protection in restored works. Section 104A(h),
as amended, provides that the date of restoration of a
restored copyright shall be the date on which the TRIPs
Agreement enters into force with respect to the United
States, if the source country is a nation adhering to the
Berne Convention or a World Trade Organization (WTO)
member on such date.
(c) Article 65, paragraph 1, of the TRIPs Agreement
provides that no WTO member shall be obliged to apply
the provisions of this Agreement until one year after the
date of entry into force of the WTO Agreement. The date
of entry into force of the WTO Agreement with respect
to the United States was January 1, 1995.
(d) The statement of administrative action, approved by
the Congress in section 101(a)(2) of the URAA (19 U.S.C.
3511(a) (2)), provides that, “in general, copyright will
be restored on the date when the TRIPs Agreement’s
obligations take effect for the United States.”
(e) Accordingly, I have decided that it is necessary
and appropriate, in order to implement the TRIPs
Agreement and to ensure that section 514 of the URAA is

66a
Appendix D
appropriately implemented, to proclaim that the date on
which the obligations of the TRIPs Agreement will take
effect for the United States is January 1, 1996.
6. (a) Section 902(a)(2) of title 17, United States Code,
authorizes the President to extend protection under
chapter 9 of title 17, United States Code, to mask
works of owners who are nationals, domiciliaries, or
sovereign authorities of, and to mask works, which are
first commercially exploited in, a foreign nation that
grants United States mask work owners substantially
the same protection that it grants its own nationals and
domiciliaries, or that grants protection to such works on
substantially the same basis as does chapter 9 of title 17,
United States Code.
(b) Australia, Canada, Japan, Switzerland, and the
Member States of the European Community provide
adequate and effective protection for mask works within
the meaning of 17 U.S.C. 902(a)(2), and have been subject
to interim protection under 17 U.S.C. 914. Consequently,
I find that these countries satisfy the requirements of 17
U.S.C. 902(a)(2), and are to be extended full protection
under chapter 9 of title 17, United States Code, effective
on July 1, 1995.
(c) In addition, 17 U.S.C. 902(a)(1)(A)(ii) provides that
mask work owners who are nationals, domiciliaries, or
sovereign authorities of a foreign nation that is a party to
a treaty affording protection to mask works to which the
United States is also a party are eligible for protection
under chapter 9 of title 17, United States Code. The TRIPs

67a
Appendix D
Agreement, which requires all WTO members to provide
protection equivalent to that provided under chapter 9
of title 17 on the basis of national treatment, is such an
agreement. Because the United States is a member of the
WTO and thus of the TRIPs Agreement, and because the
TRIPs Agreement will be effective for the United States
on January 1, 1996, all other WTO members will become
eligible for full protection under chapter 9 of title 17,
United States Code, on January 1, 1996.
7. Section 491 of the Trade Agreements Act of 1979, as
amended (“the 1979 Act”) (19 U.S.C. 2578), requires the
President to designate an agency to be responsible for
informing the public of the sanitary and phytosanitary
standard-setting activities of each international standardsetting organization. I have decided to designate the
Department of Agriculture as the agency responsible for
providing the public with this information.
8. (a) The March 24, 1994, Memorandum of Understanding
on the Results of the Uruguay Round Market Access
Negotiations on Agriculture Between the United States
of America and Argentina (“the MOU”), submitted to the
Congress along with the Uruguay Round Agreements,
provides for “an appropriate certificate of origin” for
imports of peanuts and peanut butter and peanut paste
from Argentina.
(b) Proclamation 6763 proclaimed the Schedule XX tariff
rate quotas for peanuts and peanut butter and peanut
paste. However, that proclamation did not specify which
agency should implement the MOU.

68a
Appendix D
(c) Section 404 of the URAA (19 U.S.C. 3601) requires
the President to take such action as may be necessary
to ensure that imports of agricultural products do not
disrupt the orderly marketing of commodities in the
United States.
(d) Accordingly, I have decided to delegate to the United
States Trade Representative (“the USTR”) my authority
under section 404 of the URAA to implement the MOU,
through such regulations as the USTR, or, at the direction
of the USTR, other appropriate agencies, may issue.
9. Section 604 of the Trade Act of 1974, as amended (19
U.S.C. 2483) (“the 1974 Act”), authorizes the President
to embody in the HTS the substance of the relevant
provisions of that Act, of other Acts affecting import
treatment, and actions thereunder, including the removal,
modification, continuance, or imposition of any rate of duty
or other import restriction.
NOW, THEREFORE, I, WILLIAM J. CLINTON,
President of the United States of America, acting under
the authority vested in me by the Constitution and the laws
of the United States, including but not limited to section
301 of title 3, United States Code, section 902(a)(1) and
(2) of title 17, United States Code, section 604 of the 1974
Act, as amended (19 U.S.C. 2483), section 491 of the 1979
Act, as amended (19 U.S.C. 2578), section 1102 of the 1988
Act, as amended (19 U.S.C. 2902), title I of the URAA (19
U.S.C. 3511-3551), and section 404 of the URAA (19 U.S.C.
3601), do hereby proclaim that:

69a
Appendix D
(1) To more completely implement the tariff treatment
accorded under the Uruguay Round Agreements, the HTS
is modified as set forth in the Annex to this proclamation.
(2) The obligations of the TRIPs Agreement shall enter
into force for the United States on January 1, 1996.
(3) Australia, Canada, Japan, Switzerland, and the
Member States of the European Community shall be
extended full protection under chapter 9 of title 17, United
States Code, effective on July 1, 1995. In addition, as of
January 1, 1996, full protection under chapter 9 of title
17, United States Code, shall be extended to all WTO
Members.
(4) The Secretary of Agriculture is designated, under
section 491 of the 1979 Act, as amended (19 U.S.C. 2578),
as the official responsible for informing the public of the
sanitary and phytosanitary standard-setting activities of
each international standard-setting organization.
(5) The USTR is authorized to exercise my authority under
section 404 of the URAA (19 U.S.C. 3601) to implement
the MOU with Argentina, through such regulations as the
USTR, or, at the direction of the USTR, other appropriate
agencies, may issue.
(6) In order to make conforming changes and technical
corrections to certain HTS provisions, pursuant to actions
taken in Proclamation 6763, the HTS and Proclamation
6763 are modified as set forth in the Annex to this
proclamation.

70a
Appendix D
(7) All provisions of previous proclamations and Executive
orders that are inconsistent with the actions taken in
this proclamation are superseded to the extent of such
inconsistency.
(8) This proclamation shall be effective upon publication
in the Federal Register.
IN WITNESS WHEREOF, I have hereunto set my hand
this twenty-third day of March, in the year of our Lord
nineteen hundred and ninety-five, and of the Independence
of the United States of America the two hundred and
nineteenth.
WILLIAM J. CLINTON

71a
Appendix D
MEMORANDA OF PRESIDENT
Memorandum on the Uruguay Round Agreements
<Dec. 23, 1994, 60 F.R. 1003>
Memorandum for the United States
Trade Representative
Subject: Acceptance of the WTO Agreement
Being advised that Canada, the European Community,
Mexico, Japan, and other major trading countries
have committed to acceptance of the Uruguay Round
Agreements, I have determined that a sufficient number
of foreign countries are accepting the obligations of
those Agreements, in accordance with article XIV of the
Agreement Establishing the World Trade Organization
(WTO Agreement), to ensure the effective operations of,
and adequate benefits for the United States under, those
Agreements.
Pursuant to section 101(b) of the Uruguay Round
Agreements Act (Public Law 103-465; 108 Stat. 4809)
[subsec. (b) of this section] and section 301 of title 3, United
States Code [section 301 of Title 3, The President], I
hereby direct the United States Trade Representative, or
his designee, to accept the Uruguay Round Agreements,
as described in section 101(d) of that Act [subsec. (d) of
this section], on behalf of the United States in accordance
with article XIV of the WTO Agreement.

72a
Appendix D
You are author ized and directed to publish this
memorandum in the Federal Register.
WILLIAM J. CLINTON

73a
Appendix D
35 U.S.C.A. § 112
§ 112. Specification
Effective: September 16, 2012
(a) In General.--The specification shall contain a written
description of the invention, and of the manner and process
of making and using it, in such full, clear, concise, and exact
terms as to enable any person skilled in the art to which
it pertains, or with which it is most nearly connected, to
make and use the same, and shall set forth the best mode
contemplated by the inventor or joint inventor of carrying
out the invention.
(b) Conclusion.--The specification shall conclude with one
or more claims particularly pointing out and distinctly
claiming the subject matter which the inventor or a joint
inventor regards as the invention.
(c) Form.--A claim may be written in independent or, if
the nature of the case admits, in dependent or multiple
dependent form.
(d) Reference in Dependent Forms.- - Subject to
subsection (e), a claim in dependent form shall contain a
reference to a claim previously set forth and then specify
a further limitation of the subject matter claimed. A claim
in dependent form shall beconstrued to incorporate by
reference all the limitations of the claim to which it refers.
(e) Reference in Multiple Dependent Form.--A claim in
multiple dependent form shall contain a reference, in the

74a
Appendix D
alternative only, to more than one claim previously set
forth and then specify a further limitation of the subject
matter claimed. A multiple dependent claim shall not
serve as a basis for any other multiple dependent claim. A
multiple dependent claim shall be construed to incorporate
by reference all the limitations of the particular claim in
relation to which it is being considered.
(f) Element in Claim for a Combination.--An element in
a claim for a combination may be expressed as a means or
step for performing a specified function without the recital
of structure, material, or acts in support thereof, and
such claim shall be construed to cover the corresponding
structure, material, or acts described in the specification
and equivalents thereof.

75a
Appendix D
35 U.S.C.A. § 282
§ 282. Presumption of validity; defenses
Effective: September 16, 2012
(a) In General.--A patent shall be presumed valid. Each
claim of a patent (whether in independent, dependent,
or multiple dependent form) shall be presumed valid
independently of the validity of other claims; dependent
or multiple dependent claims shall be presumed valid even
though dependent upon an invalid claim. The burden of
establishing invalidity of a patent or any claim thereof
shall rest on the party asserting such invalidity.
(b) Defenses.--The following shall be defenses in any
action involving the validity or infringement of a patent
and shall be pleaded:
(1) Noninfringement, absence of liability for
infringement or unenforceability.
(2) Invalidity of the patent or any claim in suit
on any ground specified in part II as a condition
for patentability.
(3) Invalidity of the patent or any claim in suit
for failure to comply with-(A) any requirement of section 112,
except that the failure to disclose
the best mode shall not be a basis on

76a
Appendix D
which any claim of a patent may be
canceled or held invalid or otherwise
unenforceable; or
(B) any requirement of section 251.
(4) Any other fact or act made a defense by
this title.
(c) Notice of Actions; Actions During Extension of
Patent Term.--In an action involving the validity or
infringement of a patent the party asserting invalidity
or noninfringement shall give notice in the pleadings or
otherwise in writing to the adverse party at least thirty
days before the trial, of the country, number, date, and
name of the patentee of any patent, the title, date, and
page numbers of any publication to be relied upon as
anticipation of the patent in suit or, except in actions in
the United States Court of Federal Claims, as showing
the state of the art, and the name and address of any
person who may be relied upon as the prior inventor or
as having prior knowledge of or as having previously used
or offered for sale the invention of the patent in suit. In
the absence of such notice proof of the said matters may
not be made at the trial except on such terms as the court
requires. Invalidity of the extension of a patent term or
any portion thereof under section 154(b) or 156 because
of the material failure-(1) by the applicant for the extension, or
(2) by the Director,

77a
Appendix D
to comply with the requirements of such section shall be
a defense in any action involving the infringement of a
patent during the period of the extension of its term and
shall be pleaded. A due diligence determination under
section 156(d)(2) is not subject to review in such an action.

